Inspectors General
u.s. Department ofDefense and 

u.s. Department of State


Interagency Evaluation of the
Section 1206 Global Train and
Equip Program
August 31, 2009

Department of Defense
Report No. IE-2009-007

Department of State
Report No. ISP-I-09-69
                        Interagency Evaluation of the Section 1206
                             Global Train and Equip Program

Who Should Read This Report?
This report should be read by military and civilian managers throughout the Department of Defense and
Department of State who have responsibility for Section 1206 National Defense Authorization Act of Fiscal
Year 2006 Global Train and Equip Program policies, procedures, and processes.

What Did We Do?
We performed this evaluation at the request of the Principal Deputy Under Secretary of Defense (Policy) and
the Director of the Joint Staff. The objectives included an evaluation of the effectiveness of the Section 1206
program in building capacity for counterterrorist and stability and military operations; the efficiency of the
Section 1206 program with regard to project selection, execution, implementation, results, and sustainment;
and management’s compliance with Section 1206 statutory requirements.
We collected key information for this report during our visits to eight Section 1206 partner nations—
Dominican Republic, Georgia, Indonesia, Lebanon, Nigeria, Panama, Sao Tome and Principe, and Sri Lanka.
Prior to, and following the country visits, the interagency team collected information about the program at
various offices throughout the Department of Defense, Department of State, and combatant commands.

What Was Identified?
Generally, the Section 1206 program is effective in building the capacity of partner nations to conduct
counterterrorist and participate in or support stability or military operations. However, there are management
opportunities to improve effectiveness and efficiency of the processes for project selection, program
execution, and project implementation. Overall, the Section 1206 project selection process functioned well
and included procedures to ensure compliance with statutory requirements.
The IG team found, in visits to eight countries, the following types of execution problems: obligation of
funds, Defense Security Cooperation Agency’s procurement and shipping process, delays in providing the
approved training and equipment, project status and tracking issues, and other inefficiencies. These problems
complicate one of the program’s goals “to respond to emergent threats or opportunities.”
Department of State country teams, DoD combatant commanders, program managers, and partner nations,
have implemented Section 1206 projects despite administrative, political, infrastructure, and/or economic
hurdles. Implementation results were positive, but overall program execution was not always timely.

How Could The Program Be Improved?
This report makes nine recommendations that affect the following program areas: proposal submission
template; DoD directives for program policies and instructions; shipment priorities; management
review processes; military-to-military training objectives; security assistance officer training; munitions
safety training; use of concept of operations plans; and performance measures.

What Actions Were Taken?
During the course of this review, the Departments of Defense and State initiated management actions to
further develop and refine the Section 1206 program. These actions are summarized in Chapter 7 in
recognition of those efforts.
GENERAL INFORMATION
  Forward questions or comments concerning the DoD/DOS Interagency Assessment of the
  Section 1206 National Defense Authorization Act of Fiscal Year 2006 Global Train and
  Equip Program and other oversight activities conducted by the DoD and DOS Inspections
  Directorates to:

  Inspections & Evaluations Directorate                 Office of Inspections
  Office of the Deputy Inspector General                Office of the Inspector General
    for Policy & Oversight                              U.S. Department of State
  Office of the Inspector General of the                Room 8100
    Department of Defense                               2121 Virginia Ave., NW
  400 Army Navy Drive                                   Washington, DC 20522-038
  Arlington, Virginia 22204-4704                        petersonr@state.gov
  crystalfocus@dodig.mil

  An overview of the Inspector General of the Department of Defense mission and
  organizational structure is available at www.dodig.mil.

  An overview of the Inspector General of the Department of State mission and
  organizational structure is available at www.state.gov.


  We prepared this report using the President’s Council on Integrity and Efficiency (PCIE)
  “Quality Standards for Inspections,” January 2005.



  TO REPORT FRAUD, WASTE, AND ABUSE

  Contact the DoD OIG Hotline by telephone at (800) 424-9098, by e-mail at
  hotline@dodig.mil or in writing:

                                     Defense Hotline
                                      The Pentagon
                               Washington, D.C. 20301-1900


  Contact the DOS OIG Hotline by telephone at (800) 409-9926, by e-mail at
  oighotline@state.gov or in writing:

                            Office of Inspector General Hotline
                                 U.S. Department of State
                                       P.O. Box 9778
                                   Arlington, VA 22219
                    u.s. Department of Defense and
                           U.S. Department of State



                                                                    August 31,2009

                              Report Transmittal



      This repOlt was prepared by the Offices of Inspector General of the
Departments of Defense and State, pursuant to the Inspector General Act of 1978,
as amended.

       We are providing this report for information and use. We requested and
received management comments from the Under Secretary of Defense (Policy)
Special Operations/Low-Intensity Conflict & Interdependent Capabilities, Joint
Staff, U.S. Africa Command, U.S. Central Command, U.S Joint Forces Command,
U.S. Pacific Command, U.S. Southern Command, U.S. Special Operations
Command, U.S. Strategic Command, U.S. Transportation Command, Defense
Security Cooperation Agency, and the Department of State's Bureau of Political
Military Affairs.

       We considered management's comments in preparing this final report.
DoD management comments did not fully conform to the requirements of DoD
Directive 7650.3 , "Follow-up on General Accounting Office (GAO), DoD
Inspector General (DoD IG), and Internal Audit Reports," June 3, 2004.
Therefore, comments on the final report are requested and should be provided by
September 30, 2009.

      We appreciate all courtesies extended to the IG team during this evaluation.




Charles W. Beardall                                   Robert B. Peterson
Deputy Inspector General                              Assistant Inspector General
for Policy and Oversight                              for Inspections
Department of Defense                                 Department of State
This Page Intentionally Blank
Table of Contents

Executive Summary ........................................................................................................... i 

Chapter 1 Overview.......................................................................................................... 1 

Chapter 2 Project Selection Process................................................................................ 9 

Chapter 3 Program Execution....................................................................................... 17 

Chapter 4 Implementation Process ............................................................................... 27 

Chapter 5 Section 1206 Program Results ..................................................................... 35 

Chapter 6 Additional Observations .............................................................................. 43 

Chapter 7 Actions Taken................................................................................................ 45 

Appendix A Project Request......................................................................................... 47 

Appendix B Announcement of Interagency Assessment............................................ 49 

Appendix C Scope and Methodology ........................................................................... 51 

Appendix D Interim Report.......................................................................................... 53 

Appendix E Security Assistance Organizations and Security Assistance Officers.. 57 

Appendix F Sanctions, Human Rights, and Section 1206 .......................................... 58 

Appendix G FMF, IMET, and Section 1206 Funds, FY 2003-2007 .......................... 63 

Appendix H Lebanon Case Study ................................................................................ 64 

Appendix I Country Reports ......................................................................................... 67 

Appendix J Distribution .............................................................................................. 101 
This Page Intentionally Blank
                       Interagency Evaluation of the Section 1206 Global Train and Equip Program
                        August 31, 2009                              Report Number IE-2009-007



                                   Executive Summary
Interagency Evaluation
An interagency Department of Defense and Department of State Inspectors General team
conducted this evaluation of the National Defense Authorization Act for Fiscal Year
2006, Section 1206, “Global Train and Equip” Program [hereafter, “Section 1206”].

Section 1206, as amended in the FY 2009 National Defense Authorization Act, provides
the Secretary of Defense with new authority to expend Department of Defense
Operations and Maintenance funds to train and equip a foreign country’s national military
forces. The authority specifies that the Secretary of Defense, in coordination with the
Secretary of State, may help build the capacity of partner nations to:

       Conduct counterterrorist operations, or
       Participate in or support military and stability operations in which the U.S. Armed
        Forces are a participant. 1

Purpose and Objectives
The purpose of this evaluation was to conduct a systemic review of the Section 1206
program to identify opportunities for improvements. We evaluated program:

       Effectiveness in building capacity for counterterrorist and stability or military
        operations;
       Efficiency with regard to project selection, execution, implementation, results,
        and sustainment; and
       Compliance with statutory requirements.
The universe of data collected was the approved projects for the Section 1206 program
authorized by the National Defense Authorization Act for Fiscal Year 2006, as amended.
However, the Inspector General team collected information for both Fiscal Year 2006
and Fiscal Year 2007 projects in the countries visited. Pakistan had an approved project
for Fiscal Year 2006; however, data collected on that project is included in a separate
Inspector General report addressing security assistance to Pakistan.




1
  The National Defense Authorization Act for Fiscal Year 2009 expanded the Section 1206 authority to
include “maritime Security Forces.”




                                                   i
                  Interagency Evaluation of the Section 1206 Global Train and Equip Program
                   August 31, 2009                              Report Number IE-2009-007

Key Judgments
Project Selection Process
     There is no Department of Defense directive or instruction that defines
      authorities, roles, responsibilities, and instructions for the Section 1206 program.
      Now that the program is evolving and maturing, it needs codified and
      institutionalized policies, procedures, and processes.
     The synergy achieved by combining the geographical perspectives and resources
      of country teams (country) and combatant commands (regional) in Section 1206
      project planning and implementation is a unique strength of this type of security
      assistance.
     The Under Secretary of Defense (Policy), in coordination with the Department of
      State, has developed a well-structured project selection process that includes
      vetting procedures; however, there are opportunities to improve the submission
      template to facilitate prioritization and selection decisions further.
     Although Section 1206 projects may be one-time, short duration efforts, all
      Section 1206 project proposals need a statement on the partner nation’s
      commitment to “sustainment.” Long-term execution of Section 1206 projects
      requires the partner nation’s commitment to sustain the train and equip initiatives.
      Without the partner nation’s commitment to sustain Section 1206 cases, continued
      effectiveness may require additional non-Section 1206 funding.
     Bilateral and multilateral coordination in the planning of project proposals is
      essential so that, once approved, they can be implemented on a timely and
      effective basis.

Program Execution
     Section 1206 project execution was not always timely or complete. Defense
      Security Cooperation Agency actions are needed to reduce procurement and
      shipping delays to respond more quickly to actual or emerging terrorist threats,
      and to ensure all approved case funds are obligated before funding authorization
      expires.
     In the areas that we reviewed, the Defense and State Departments have conducted
      the Section 1206 program in compliance with the law.

Implementation Process
     The complexity of tracking Foreign Military Sales cases made it difficult for
      country teams to know the status of their projects and communicate status details
      to partner nations.
     The Department of Defense used contractors effectively for those Section 1206
      training projects evaluated; however, program managers should consider using
      U.S. military personnel to conduct training so as to benefit from military-to-
      military contact and relationship-building opportunities.


                                            ii
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007

      Security assistance officers play a significant role in the development and
       coordination of Section 1206 proposals and in the implementation of the approved
       projects. Some security assistance officers at the embassies visited were not
       adequately trained on the Foreign Military Sales or security assistance process.

Fiscal Year 2006 Section 1206 Program Results
      Generally, the Section 1206 projects evaluated were effective in building partner
       nation capacity for counterterrorist and military or stability operations, and helped
       those nations increase control over their borders and ungoverned spaces and
       counter terrorism.
      Section 1206 leverages the expertise of both Departments of Defense and State.
       As such, Section 1206 is an excellent tool for providing corollary benefits to the
       Chiefs of Mission including facilitating bilateral discussions and other diplomatic
       efforts.
      Country teams, partner nations, and program managers would benefit from having
       Concepts of Operations that describe the overall strategy, purpose, resource
       requirements, timing, roles and responsibilities, and actions required in order to
       plan and implement Section 1206 projects more effectively.
      Section 1206 program officials announced plans to establish standards to measure
       the performance of Section 1206 projects with respect to program goals and
       objectives.

Recommendations
Considering the key judgments above, we recommend the following actions:

Recommendation 1: The Under Secretary of Defense (Policy), in coordination with the
Department of State’s Bureau of Political Military Affairs, should revise the Section 1206
FY 2009 Proposal Submission Template to strengthen and facilitate the vetting process
and to foster partner nation buy-in. The template should require statements describing
the:
   (a) actual or potential terrorist threat in terms of nature, scope, degree, and
       immediacy;
   (b) bilateral consultation and coordination process for formulating the proposal; and
   (c) partner nation’s commitment and capability to sustain project implementation.




                                             iii
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007


Recommendation 2: The Under Secretary of Defense (Policy), in coordination with the
Department of State’s Bureau of Political Military Affairs, should incorporate policies,
responsibilities, procedures, and reporting requirements for the Section 1206 program
into existing Department of Defense Directives or Instructions.
Recommendation 3: The Director, Defense Security Cooperation Agency should
coordinate with the appropriate theater commands to ensure that the 6 to 18 month
timeline for delivery of Section 1206 equipment and supplies is factored into overall
validated theater movement priorities and that those priorities are communicated to U.S.
Transportation Command for timely movement in the Defense Transportation System.

Recommendation 4: The Director, Defense Security Cooperation Agency, in
coordination with the Office of the Under Secretary of Defense (Comptroller), should
establish and implement a periodic report that tracks actual obligation and expenditure of
funds, funds rendered unavailable for obligation, and other financial data similar to the
information that is included in the Defense Security Cooperation Agency “Financial
Management Review — Case Financial Status Reporting Format for Foreign Military
Sales” cases.

Recommendation 5: The Director of the Joint Staff, in coordination with the Under
Secretary of Defense (Policy), should establish guidance for military-to-military training
that supports Section 1206 projects.

Recommendation 6: The Director, Defense Security Cooperation Agency, should
ensure all security assistance officers selected for assignment to Section 1206 countries
complete training in accordance with DoDI 5132.13, "Staffing of Security Cooperation
Organizations and the Selection and Training of Security Cooperation Personnel",
January 9, 2009, to include training on Foreign Military Sales and the acquisition process.

Recommendation 7: The Security Assistance Officers in countries receiving munitions
through Section 1206 projects should arrange to provide partner nation personnel with
U.S. training to ensure safe handling, storage, maintenance, and proper security for
U.S.-supplied munitions.

Recommendation 8: The Under Secretary of Defense (Policy), in coordination with the
Director of the Joint Staff and Department of State’s Bureau of Political Military Affairs,
should direct Security Cooperation Officers to work with partner nations to develop a full
Concept of Operations by the final approval of the project.

Recommendation 9: The Under Secretary of Defense (Policy), in coordination with the
Joint Staff J-5 and the Combatant Commands, should develop metrics of effectiveness for
building Section 1206 partnership capacity and establish clearly defined outputs and
outcomes.




                                             iv
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

Management Comments
We requested and received management comments from the Under Secretary of Defense
(Policy) Special Operations/Low-Intensity Conflict & Interdependent Capabilities;
Commanders of U.S. Africa Command, U.S. Central Command, U.S. Joint Forces
Command, U.S. Pacific Command, U.S. Southern Command, U.S. Special Operations
Command, U.S. Strategic Command, U.S. Transportation Command; Deputy Director,
Defense Security Cooperation Agency; and the Assistant Secretary of State for Political
Military Affairs.
The IG team reviewed both informal and formal comments to the draft report. The Under
Secretary of Defense (Policy) Special Operations/Low-Intensity Conflict &
Interdependent Capabilities commented on three conceptual areas: Section 1206 as a
Building Partnership Capacity, the intent of Section 1206, and metrics.
Commanders, U.S. Africa Command and U.S. Central Command, commented that
coordinating the Section 1206 project proposal with the partner nation prior to
submission would inflate the expectations of some partner nations and could create
dissatisfaction and disbelief in the program or degrade the relationship with the partner
nation.
Commander, U.S. Africa Command, and the Assistant Secretary of State for Political
Military Affairs commented that not all projects require sustainment funding, and there is
no reliable method to ensure partner nations apply out-year funding to sustain equipment
or programs provided under Section 1206.
The Deputy Director, Defense Security Cooperation Agency, agreed that the draft report
recommendations were beneficial. She commented that the key challenge would be to
develop measurable program metrics.

Evaluation Response
We incorporated management’s suggestions in this report. However, the joint DoD and
DOS IG team believes that partner nation input on Section 1206 project proposals,
partner nation sustainment of Section 1206 projects, and DoD development of output and
outcome metrics are important to the continued success of the Section 1206 program. As
a result, we affirm our discussion of these issues.

We agreed with management and deleted recommendation 8. We renumbered
Recommendations 9 and 10 to be Recommendations 8 and 9. Changes made to
recommendations are discussed as they appear throughout the report.

DoD management comments did not fully conform to the requirements of DoD Directive
7650.3. Therefore, comments on the final report are requested and should be provided by
September 30, 2009.

We chose not to include copies of management’s comments because of the length of this
report. Full text versions are available upon request.




                                             v
Interagency Evaluation of the Section 1206 Global Train and Equip Program
 August 31, 2009                              Report Number IE-2009-007




          This Page Intentionally Blank
                        Interagency Evaluation of the Section 1206 Global Train and Equip Program
                         August 31, 2009                              Report Number IE-2009-007


“Arguably the most important military component in the War on Terror is not the
fighting we do ourselves, but how well we enable and empower our partners to defend
and govern their own countries. 2 —Robert Gates, Secretary of Defense, 2008

Chapter 1 Overview
Introduction
Request for this Evaluation
In 2007, the Principal Deputy Under Secretary of Defense for Policy (PDUSD (P)) and
the Director of the Joint Staff requested the Department of Defense (DoD) and
Department of State (DOS) Inspectors General (IGs) to conduct “a longitudinal review
over 3 years,” of the Section 1206 Global Train and Equip program (Appendix A). On
March 14, 2008, the two IG offices announced this interagency evaluation (Appendix B).
Section 1206 Legislation—Authority to Build the Capacity of
Foreign Military Forces
Section 1206 of the National Defense Authorization Act (NDAA) for Fiscal Year (FY)
2006 (P.L. 109-163) provided the President with a new authority to expend up to $200
million in Defense-wide Operations and Maintenance funds to train and equip foreign
military forces:
           “(a) Authority - The President 3 may direct the Secretary of Defense to conduct or
           support a program to build the capacity of a foreign country's national military
           forces in order for that country to―
                     (1) [C]onduct counterterrorist operations; or
                     (2) [P]articipate in or support military and stability operations in which
                     the United States Armed Forces are a participant.
            (b) Types of Capacity Building -
                     (1) AUTHORIZED ELEMENTS - The program directed by the
                     President under (a) may include the provision of equipment, supplies,
                     and training.
                     (2) REQUIRED ELEMENTS - The program directed by the President
                     under subsection (a) shall include elements that promote—
                             (A) [O]bservance of and respect for human rights and
                             fundamental freedoms; and
                             (B) [R]espect for legitimate civilian authority within that
                             country.”

2
    DoD Fiscal Year 2009 Budget Request Summary Justification, February 4, 2008.
3
 The NDAA for Fiscal Year 2007 revised Section 1206 to vest the authority directly in the Secretary of
Defense with the concurrence of the Secretary of State.



                                                    1
                      Interagency Evaluation of the Section 1206 Global Train and Equip Program
                       August 31, 2009                              Report Number IE-2009-007

The legislation also stipulates that the Secretary of Defense (SecDef) and the Secretary of
State (SecState) must jointly formulate and coordinate implementation of any Section
1206 program. Moreover, SecDef, in coordination with the SecState, must notify the
Congress at least 15 days before initiating activities in any country. Congress
reauthorized the Section 1206 program for FYs 2007 and 2008 and increased the
authorization to $300 million for each year. Most recently, the FY 2009 NDAA extended
the Section 1206 authority through FY 2011, expanded it to include foreign maritime
security forces, and set the renewed authority at $350 million per year. See Table 1.

Table 1. Section 1206 Authorized Funding ($M)─FYs 2006 through 2011
 Fiscal          Authorized
                                                            Authorization
  Year         Funding/Year $M
                                     Section 1206, National Defense Authorization Act for Fiscal
 2006                $ 200
                                     Year 2006, Pub. L. 109-163
 2007-                               Section 1206, John Warner National Defense Authorization
                     $ 300
 2008                                Act for Fiscal Year 2007, Pub. L. 109-364
 2009-                               Section 1206, Duncan Hunter National Defense
                     $ 350
 2011                                Authorization Act for Fiscal Year 2009, Pub. L. 110-417


Background
Purpose and Objectives
The purpose of this evaluation was to conduct a systemic review of the Section 1206
programs executed in FY 2006 to identify opportunities for program and process
improvements. The interagency inspector general team (hereafter, “the IG team”)
designed the project to evaluate the program’s:
         effectiveness in building capacity for counterterrorist and stability or military
          operations;
         efficiency with regard to project selection, execution, implementation, results, and
          sustainment; and
         compliance with statutory requirements.

Scope and Methodology
DoD has funded Section 1206 projects for FYs 2006, 2007, and 2008. Obligations for
FY 2009 projects are being finalized. Table 2 summarizes the partner nations that have
received Section 1206 funding in FYs 2006, 2007, and 2008. To evaluate the program,
the IG team visited 7 of the 11 countries with FY 2006 Section 1206 projects—
Dominican Republic, Indonesia, Lebanon, Nigeria, Panama, Sao Tome and Principe, and
Sri Lanka, and also visited Georgia, which is among the 43 countries on the FY 2007 list.
At the time of our field work, FY 2007 projects were not mature enough for a
comprehensive analysis of project results after project implementation and were outside
the scope of this review. The only exception was Georgia’s project; therefore, countries
with mature FY 2006 projects were visited so project assessments of partner nation
capability could be accomplished by the IG team. [Note: With reference to the FY 2006



                                                2
                     Interagency Evaluation of the Section 1206 Global Train and Equip Program
                      August 31, 2009                              Report Number IE-2009-007

list, the IG team did not visit Bahrain, Chad, or Yemen because of security or
administrative factors.]

Table 2. Section 1206 Partner Nations and Project Funding ($M)―
Fiscal Years 2006 – 2008
     Country         FY        FY      FY              Country        FY    FY           FY
                    2006      2007    2008                           2006  2007         2008
                AFRICOM                                            CENTCOM
Algeria                         0.4                Bahrain             5.3  24.7          4.3
Benin                           0.2      1.2       Kazakhstan               19.3         12.5
Cameroon                        1.2      3.7       Kyrgyzstan                            12.0
Cape Verde                      0.2      1.8       Lebanon              10.5    30.6     20.6
Chad                    3.1     9.0                Pakistan             23.3    13.8     55.8
Democratic                      0.1                Yemen                 4.3    26.0
Republic of Congo
Djibouti                        8.9      5.1       TOTAL                43.4   114.4    105.2
Ethiopia                        9.3     17.8
Gabon                           0.4      4.1                        PACOM
Gambia                          0.2                Bangladesh                             7.2
Ghana                           2.3      1.1       Indonesia            18.4    28.7     10.4
Guinea                          0.2      2.6       Malaysia                     16.3     27.6
Kenya                           3.1     11.1       Philippines                  15.5     16.9
Liberia                         0.2                Sri Lanka            10.8     7.4
Mali                            0.2                Thailand
Mauritania                      5.6                TOTAL                29.2    67.9     62.1
Morocco                         0.4
Mozambique                      0.2                               SOUTHCOM
Niger                           0.2                Bahamas                        5.8      3.2
Nigeria                 6.5     0.9                Belize                                  6.1
Sao Tome and            3.4     0.4      1.5       Dominican             7.2      0.5      1.0
Principe                                           Republic
Senegal                         0.4      4.1       Guyana                                 1.8
Sierra Leone                    0.2      2.3       Honduras                       5.7     3.5
Tanzania                        0.9                Jamaica                        5.8     0.8
Togo                                     0.0       Nicaragua                      5.8     1.0
Tunisia                                 10.0       Panama                7.2              0.0
TOTAL                  13.0    44.7     66.4       Suriname                               2.1
                                                   TOTAL               14.4     23.6     19.5
                    EUCOM                          FY TOTAL           100.0    279.9    284.7
Albania                         6.8      5.5
                                                   Source: Composite table created by the
Azerbaijan                               1.7
                                                   interagency team using data provided by the
Georgia                         6.5     11.4       Defense Security Cooperation Agency.
Macedonia                       3.0
Ukraine                        12.0
TOTAL                   0.0    28.3     18.6

               NORTHCOM
Mexico                          1.0     12.9
TOTAL                   0.0     1.0     12.9




                                               3
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007


In addition to visiting project sites, the IG team analyzed program documents and
interviewed program officials at:

           DoD and DOS─Washington, D.C.,
           Special Operations Command (SOCOM) and geographic COCOMs,
           U.S. embassies (Country Teams), and
           Partner nationscivilian and military officials.

See Appendix C, Scope and Methodology, for additional details.

Interim Report Issued
On July 1, 2008, the IG team released an interim report to summarize their preliminary
observations and recommendations (see Appendix D). This report incorporates the
interim report’s discussion points and results.

Discussion
Countering Terrorism
The United States’ counterterrorist
(CT) strategy is to use all elements
of national power—diplomatic,
economic, law enforcement,
financial, information, intelligence,
and military―to defeat terrorism. 4
Military power can be used to
eliminate safe havens, control
national borders, and assert authority
over ungoverned spaces. It can be
employed to thwart the ability of
terrorist groups to (1) move people
and materiel freely across borders
and over sea-lanes or (2) find refuge
in sanctuaries. Military power can          Liberation Tigers of Tamil Eelam (LTTE) terrorists in
                                         Sri Lanka - Note: child soldier, second row, third from left.
be used to confront and defeat                      (Source: Sri Lankan government officials)
transnational terrorist forces that
have gained footholds or control in
ungoverned spaces and areas where governmental authority is weak or ineffective.
Smugglers, gunrunners, drug traffickers, poachers, and other criminals operating across
national boundaries complicate the counterterrorist and security scenarios. 5

4
    Executive Office of the President, National Strategy for Combating Terrorism, February 2003.
5
    Ibid.



                                                      4
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007


Section 1206 of the NDAA for Fiscal Year 2006 authorized DoD to fund a major foreign
security assistance program using funds appropriated for the purpose of DoD Operations
and Maintenance. The State Department manages funding for programs like Foreign
Military Financing (FMF) and International Military Education and Training (IMET), but
defers implementation and execution of those programs to DoD.

The terrorist challenge has changed considerably over the past decade and likely will
continue to evolve. One of the objectives of the Section 1206 authority is to give the
DoD, with concurrence from the SecState, a responsive mechanism to identify and
address gaps in partner nation’s capability to conduct counter terrorism operations or to
participate alongside U.S. forces in stability operations. Although Under Secretary of
Defense for Policy (USD(P)) officials stated Section 1206 projects may take from 6 to 18
months for delivery, the DoD Fiscal Year 2009 Budget Request Summary Justification,
February 4, 2008, stated “traditional security assistance takes three to four years from
concept to execution,” while the “Global Train and Equip authority allows a response to
emergent threats or opportunities in six months or less.” In other words, emerging threats
or CT opportunities require a more agile response in contrast to the slow traditional
foreign security assistance processes.

Section 1206 activities must also be compatible with long-term U.S. Government (USG)
security assistance goals and programs. Hence, the respective ambassadors in partner
countries have, along with COCOMs, a key role in formulating Section 1206 proposals.
The U.S. maintains diplomatic relations with 190 countries and many international
organizations, requiring more than 250 DOS posts around the world. The Chief of
Mission (COM)─with the title of Ambassador, Minister, or Charge d'Affaires—heads the
mission's "country team." Operating under the SecState, the COM assists in
implementing the President's constitutional responsibilities for the conduct of U.S.
foreign relations. The country team comprises personnel from various executive branch
agenciesprincipally, the Departments of State, Defense (including the security
assistance organization (SAO)), 6 Commerce, Agriculture, Justice (the Drug Enforcement
Administration and the Federal Bureau of Investigation), and the U.S. Agency for
International Development.

The country team, in coordination with the appropriate COCOM, confers with host
country officials and jointly develops the project proposals (see Chapter 2, Selection
Process).

Participating with the U.S. in Joint Stability and Military Operations
Section 1206 also authorizes projects to build the capacity of a foreign country’s military
so that they can “participate in or support military and stability operations in which U.S.
Armed Forces are a participant.” Some Section 1206 projects are designed to improve
the ability of foreign military forces to deploy along with the U.S. For example, counter
terrorist or stability projects can be designed to improve the interoperability of equipment

6
    See Appendix E for description of “Security Assistance Organizations and Security Assistance Officers.”




                                                      5
                        Interagency Evaluation of the Section 1206 Global Train and Equip Program
                         August 31, 2009                              Report Number IE-2009-007

between the forces of the partner nation and the U.S. The IG team observed that the
projects in Georgia had the benefit of facilitating stability and joint military operations.

Section 1206—A Building Partnership Capacity Tool Supporting
Counterterrorist or Stability Operations
According to the House Conference Report on Section 1206 for Fiscal Year 2006, the
purpose of the authority was to provide a means for the USG to respond to emerging
threats by “building the capacity of partner nations’ military or security forces to disrupt
or destroy terrorist networks.” As such, Congress established Section 1206 to allow
funding for projects designed to bolster the ability of the partner nation’s military to
counter terrorism and cooperate with the U.S. in joint military or stability operations.

The Section 1206 program is a building partnership capacity activity. As stated in a
RAND report, building partnership capacity is defined as an “umbrella objective that
draws on the elements of security cooperation. The primary goal is to implement a
multiagency approach to meeting U.S. strategic objectives, one that includes not only
USG entities but also key partners and allies.” 7 According to USD(P) officials, for
Section 1206, the intent is to provide a tool for the DoD to identify and address capability
gaps in a partner nations’ military abilities to conduct counterterrorism operations or
support or participate in military and stability operations.

The House Armed Services Committee mark-up comments to the NDAA for FY 2010
recognized the significant and “fundamental distinction of purpose between [FMF]
requirements generated on behalf of the partner nation (consistent with U.S. policy), and
[Section 1206] requirements generated through a Department of Defense-led assessment
of United States’ national security needs.” 8

Four of the eight countries visited—Indonesia, Nigeria, Sao Tome and Principe, and Sri
Lanka—received more Section 1206 funding in FY 2006 than the combination of grants
for FMF or IMET for the period 2003 – 2007 (see Table 3). Embassy officials reported
that Section 1206 funds were the key form of security assistance in their respective
countries. Without Section 1206 funding for projects, the ambassadors would have had
little or no security assistance capability specifically targeted at building partner nation
CT or stability operations capacity. Some embassy officials told the IG team that they
understand that Section 1206 is not a substitute for other forms of security assistance, but
designed for CT or stability goals. They opined that Section 1206 had helped to develop
positive bilateral relationships and promote regional security strategies.

7
    RAND Report: “A Framework to Assess Programs for Building Partnerships,” undated.
8
 House of Representatives Report 111-166 to the National Defense Authorization Act for Fiscal Year
2010, H.R. 2647, page 412.




                                                   6
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007

       Table 3. Survey of Country Military Assistance, FY 2003 through FY 2007 ($000)
       (Section 1206 for FY 2006 and 2007 only, after creation of program in 2006) 9
                                                                                  Section 1206
                     Country              FMF        IMET        FMF + IMET
                                                                                  FY 06 and 07
           Dominican Republic              4,958         5,113        10,071              7,700
           Georgia                        52,384         6,260        58,644             6,500
           Indonesia                       7,165         2,642         9,807            47,100
           Lebanon                      254,463          3,866       258,329            41,100
           Nigeria                         2,490         1,584         4,074             7,400
           Panama                          5,747         3,293         8,940             7,200
           Sao Tome and Principe.            500          971          1,471             3,800
           Sri Lanka                       4,971         2,333         7,304            18,200
           Totals                         81,543     26,062          107,605           139,000

          For Year-by-Year Summary, see Appendix G.

Section 1206 Program Review Criteria
As a general framework for evaluating program management, the IG team considered
these criteria.

Eligibility
For fiscal years 2006 – 2008, Section 1206 projects were designed to build a partner
nation’s military’s capability to counter terrorism or to participate with the U.S. in
stability and other military operations. The FY 2009 NDAA extended the eligibility
criteria to include maritime security forces. All Section 1206 projects are subject to legal
restrictions similar to those on other security assistance programs.

Timeliness
Congress enacted the Section 1206 authority because the planning and implementation
processes under other traditional security assistance programs were “too slow and
cumbersome.” 10 Timely execution is a key consideration to measure program
effectiveness and efficiency.




9
    U.S. Department of State, Country Reports on Human Rights 2007, Appendix I.
10
     DoD Fiscal Year 2009 Budget Request Summary Justification, February 4, 2008, pg. 103.


                                                     7
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

Capacity Building
In FY 2006, the first year of the program’s operation, the Section 1206 projects focused
on capacity building for counterterrorism. That year DoD allocated $100 million of the
$200 million authorized to fund nine projects involving 11 countries (see Table 1). These
projects provided equipment for surveillance, secure communications, and intercept
capabilities and associated training to secure borders or sea-lanes or to exercise authority
over national territory. The FY 2007 projects in Georgia improved secure command and
control capabilities, but the projects also provided tactical training for stability
operations.




                                             8
                           Interagency Evaluation of the Section 1206 Global Train and Equip Program
                            August 31, 2009                              Report Number IE-2009-007



Chapter 2 Project Selection Process
Summary
The Section 1206 project selection process begins when DoD and DOS issue identical
guidance to their respective organizations and call for the submission of proposals.
Embassy country teams and the respective combatant commands collaborate, coordinate,
and submit their proposals to the DoD and DOS approval process. When SecDef, in
coordination with SecState, approves a project proposal, the decision is sent to Congress
to comply with the statute’s 15-day notification requirement before executing the project.
The IG team concluded that there is a well structured project selection process that
includes vetting procedures to ensure compliance with statutory requirements. However,
there are opportunities to improve the template 11 used to submit proposals.

Proposing Projects
The selection process (Figure 1) begins when DoD and DOS issue identical guidance to
their respective organizations and call for the submission of proposals. This guidance
requires embassies and COCOMs to describe how Section 1206 funding will strengthen
the partner nation’s ability to conduct counterterrorist operations or to participate in or
support military and stability operations in which the U.S. Armed Forces are a
participant. Among other issues, the proposal must also describe how the project
addresses urgent or emergent threats or opportunities and how it will support U.S.
national security objectives.




                                 Figure 1. Section 1206 Selection Process 12

11
     Discussed later in this chapter.
12
     IG Assessment Team composite drawing developed from multiple sources.


                                                    9
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

To facilitate the submission procedure, DoD established a standard proposal template.
Instructions on the FY 2009 Proposal Submission Template state: “Ideally, all proposals
should be jointly formulated” [by embassies and COCOMs]. We believe that as a
pragmatic element of the collaborative process, the country team and COCOM personnel
should conduct informal discussions with the partner nation before they submit their
proposals.

COCOM Reviews
The COCOMs review and approve the proposed projects based on the command’s
security strategy for their area of responsibility. For example, COCOMs can make
regional risk assessments and evaluate vulnerabilities associated with uncontrolled
borders and ungoverned spaces, including sea-lanes and other maritime areas. They can
also analyze the partner nation’s defense capabilities versus the threat and identify
opportunities for combined stability or military operations. The result is a set of
coordinated, prioritized proposals that support the COCOM’s mission and regional
strategies.

SOCOM Review. The next step is to aggregate all COCOM proposals for SOCOM
review. SOCOM reviews and prioritizes all Section 1206 nominations based on the USG
strategies, goals, and objectives to defeat and deter terrorist organizations. This step
results in an integrated, prioritized global list of CT projects that supports U.S. national
strategy to counter terrorism. SOCOM conducts this analysis and ranks projects multiple
times throughout the year and forwards its analyses and conclusions to the Joint Staff for
inclusion into the Section 1206 review process.

DoD-DOS Review and Prioritization
A Defense-State working group reviews every proposal. The proposals are submitted via
a standard Proposal Submission Template. As part of the vetting process, the working
group sends proposals to DoD and DOS regional and functional offices for further
evaluation. The evaluation criteria include:

          Legal Restrictions—DoD and DOS legal advisers review proposals to ensure
           that they satisfy the purposes of Section 1206 and are consistent with
           applicable laws, including the Foreign Assistance Act (FAA). U.S. laws may
           prohibit assistance to countries that have had a record of military coups,
           human rights abuses, or other undesirable behaviors.
           In addition, the law may restrict a particular type of foreign military
           assistance. For example, Sri Lanka received Section 1206-funded equipment
           in FY 2006 and FY 2007. However, the new “Child Soldier” prohibition in
           FY 2008 Consolidated Appropriations Act rendered Sri Lanka ineligible for
           Foreign Military Financing assistance and thus ineligible for Section 1206
           projects.




                                            10
                          Interagency Evaluation of the Section 1206 Global Train and Equip Program
                           August 31, 2009                              Report Number IE-2009-007

                In accordance with the Leahy Amendment, 13 some military units may not
                qualify for Section 1206 funds because they participated in gross violations of
                human rights. When the partner nation selects soldiers, sailors, or airmen for
                training, the U.S. must review the individuals’ records and their association
                with military units that may have been involved in gross violations of human
                rights. See Appendix F for a full discussion of these provisions. 14
               Feasibility—The Proposal Submission Template is designed to document the
                information that allows reviewers to evaluate the feasibility of each project.
                This information should describe how the initiative will strengthen the partner
                nation’s ability to conduct counterterrorist or stability operations. The
                template also requires a listing of the key milestones. It requires a statement
                of the mechanisms in place, including the status of Section 505 assurances
                that the equipment and training will be used in the manner proposed. 15
               Political-Military Issues—The Proposal Submission Template requires a
                brief description of the political, military, and intelligence factors that form
                the basis of the proposal. It further requires a concise statement that describes
                how Section 1206 funding will support U.S. foreign policy and foreign
                assistance goals for the associated country, countries, or region.
               Other Restrictions—Prior to the FY 2009 NDAA, Section 1206 funds were
                only authorized to assist national military forces of foreign countries (e.g.,
                Ministry of Defense forces). The legislation for FY 2009, however, expands
                the provisions through FY 2011 to include maritime security forces (e.g.,
                Coast Guards not under a Ministry of Defense).




13
  The Leahy Amendment has been included in appropriation bills since 1996 and is now incorporated into
the Foreign Assistance Act. Foreign Assistance Act of 1961, sec.620J, as added by the Consolidated
Appropriations Act, 2008, Pub. L. 110-161, Section 651(2007), codified at 22 U.S.C. Section 2378d
(2008).
14
     For further background on restrictions on eligible countries and types of assistance, see Appendix F.
15
     Foreign Assistance Act of 1961, as Amended (Public Law 87-195), Part II, Chapter 2, Section 505.


                                                       11
                          Interagency Evaluation of the Section 1206 Global Train and Equip Program
                           August 31, 2009                              Report Number IE-2009-007

The working group then presents the vetted projects to a review board for an interagency
decision—the results are recommended decision memoranda for SecDef and SecState.
Board members are representatives of the agencies shown in Table 4:

Table 4. FY 2009 DoD-DOS Review Board
                Department of Defense                                     Department of State
Deputy Assistant Secretary of Defense for                     Deputy Assistant Secretary for Political-
Special Operations and Counterterrorism 16                    Military Affairs
                                                              Office of the Director of Foreign
Joint Staff
                                                              Assistance
Office of the General Counsel                                 Office of the Legal Adviser
                                                              Office of the Coordinator for
Office of the Comptroller
                                                              Counterterrorism
Defense Security Cooperation Agency                           Source: USD(P)

Final Approval
After the SecDef approves, with SecState concurrence, the DSCA finalizes the Letters of
Offer and Acceptance (LOAs) that form the basis for the Letters of Notification that
USD(P) provides to Congress. The notifications are drafted by the Deputy Assistant
Secretary of Defense for Special Operations and Counterterrorism and coordinated with
the appropriate DoD and DOS regional and functional offices. In some instances,
Congress may request a briefing. SecDef must notify the Congress at least 15 days
before initiating activities in any country. The overall review and selection process is a
reasonable model for other assistance programs. 17

Overall Selection Process
Embassies and COCOMs formulate their proposals on a submission template designed to
convey the information and analysis that is used to facilitate prioritization and project
selection decisions.
          The template requires the submitter to provide information that shows that the
           proposed project satisfies statutory and policy requirements.
          The template process integrates the embassy’s country-specific geopolitical
           perspective and the COCOM’s regional military perspective.




16
     Formerly, the Assistant Secretary of Defense for Partnership Strategies.
17
  Congressional Research Service Report, “Section 1206 of the National Defense Authorization Act for
FY2006: A Fact Sheet on Department of Defense Authority to Train and Equip Foreign Military Forces,”
March 19, 2009.



                                                       12
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

A review of the FY 2006 Section 1206 project submissions revealed, however, that they
did not consistently address several significant issues. Specifically, they did not: 1)
comprehensively assess the terrorist threat; 2) explain the extent of bilateral coordination
and collaboration with the partner nation in preparing project proposals; and 3) address
how the host government intended to sustain the project(s) after U.S. Section 1206
funding lapsed. While these are not specifically required, we believe the issues are
important to support project submissions. These issues were addressed in subsequent
revisions of the proposal submission template.

Understanding the nature, scope, degree, or immediacy of the terrorist threat is essential
for decision-makers in order to be able to prioritize Section 1206 projects for selection.
Specifying the actual or potential terrorist threat was not usually provided in the projects
submitted in FY 2006. Therefore, this analysis could not be used to differentiate among
the proposals submitted in terms of their capacity to deter or counter terrorist activities in
the respective countries.


Observation 1(a): Identifying Terrorist Threat—Initial project proposals did not
consistently and comprehensively explain the nature of the potential or actual terrorist
threat; moreover, the project submission template did not require such an explanation.
As a consequence, the project evaluation process lacked key information for making
project selection decisions, and the most appropriate counter-terrorism projects may not
have been selected with respect to this objective of the Section 1206 legislation.
Subsequent template revisions addressed this issue.


Partner nation participation in establishing proposals for submission is essential in terms
of ensuring that projects are clearly understood and supported by the recipient countries’
government and are positioned for expeditious implementation. Prior embassy
collaboration with counterparts in the government before project submission also fosters
improved diplomacy in terms of military-to-military relations, and enables cooperation
with host country governments to address both bilateral and regional security issues.

In some cases, as a result of the late announcement of the FY 2006 Section 1206 funding
opportunity, the U.S. country teams had little to no time for interaction with the
government regarding the projects that were proposed. In those cases where ideas for
proposals recommended by the host government were subsequently used in formulating
Section 1206 project proposals—Lebanon and Sri Lanka, for example—faster
implementation resulted once the projects were approved.

Observation 1(b): Partner Nation Participation in Project Preparation—During the
project preparation phase of the seven FY 2006 projects reviewed by the IG team,
country teams did not always collaborate with their partner nation governments prior to
project submission. This, at least in part, resulted from a lack of sufficient lead-time
provided the embassies before submissions were required. As a consequence, partner
nation governments were not sufficiently prepared to implement the projects once
approved, and project implementation was delayed.


                                              13
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

Another key concern of the IG team centered on sustainment of projects. In the opinion
of the IG team, continued sustainment is essential to achieving the intended objectives of
the Section 1206 program. Of the eight partner nation official programs evaluated,
representatives of two of the eight governments stated they did not have sufficient time to
prepare a sustainment plan. In the other six countries there were varying degrees of
sustainment requirements, depending on the specific project. For example, the
“ammunition” project for Lebanon did not require a sustainment plan.

Some host governments already had or soon would have their own internal fiscal capacity
to sustain support for the projects. There were also cases in which the governments did
not immediately have the financial capacity and would need additional short-to-medium-
term bridge financing. Finally, some governments did not expect to be able to provide
their own sustainment funding in the near future.

As of July 2008, the status of sustainment plans was:

         The Dominican Republic, Panama, and Sri Lanka were unable to fund project
          sustainment.
         The Georgian government approved $6 million out of its defense budget for
          sustainment.
         Indonesia indicated a need for FMF assistance for the first two years, through
          FY 2010, until the country’s budget process could catch up.
         Lebanon had existing logistics capability to sustain equipment and supplies
          provided under Section 1206.
         Nigeria had not prepared its sustainment plan, but is apparently capable of
          providing funding from its own treasury.
         Sao Tome and Principe also did not have a sustainment plan and will likely
          require bridge [FMF] funding pending the development of its off-shore
          petroleum reserves.

Observation 1(c): Partner Nation Sustainment—Understanding when or whether a
partner nation will be able to sustain a Section 1206 project is a key factor in project
selection, enabling a determination in advance as to whether or not it can be
implemented. As a result of not requiring or having sustainment plans to evaluate the
FY 2006 project proposals, information was insufficient to verify whether partner nations
had the fiscal capability to sustain implementation during the life of the project.
Consequently, projects were selected where sustainability by the partner nation was at
risk.




                                            14
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007


Recommendation 1: The Under Secretary of Defense (Policy), in coordination with
the Department of State’s Bureau of Political Military Affairs, should revise the
Section 1206 FY 2009 Proposal Submission Template to strengthen and facilitate the
vetting process and to foster host nation buy-in. The template should include
supporting statements to describe the:
   (a) actual or potential terrorist threat in terms of nature, scope, degree, and
       immediacy;
   (b) bilateral consultation and coordination process for formulating the proposal;
       and
   (c) partner nation’s commitment and capability to sustain project
       implementation.



Management comments. The Assistant Secretary of State for Political Military Affairs
commented that the “. . . FY 2009 State Foreign Operations Appropriations Act stipulated
that no FMF is made available to support or continue any program initially funded under
[S]ection 1206 unless the Secretary of State has previously justified such program . . . .”
“. . . the FY 2009 [Section] 1206 guidance documents to the field and proposal
submission templates now include sections requesting details on the projected source of
follow-on sustainment.”

The Commander, U.S. Africa Command expressed concern that “while a sustainment
plan can be made using Foreign Military Financing (FMF), there is no guarantee that
FMF funding will be allocated to the country [partner nation], nor that the country will
opt to use its FMF [funds] to sustain the [Section] 1206 project.”

The Deputy Director, Defense Security Cooperation Agency commented that “requiring
that a foreign nation demonstrate its own financial ability to sustain project
implementation fully, may limit the critical flexibility that Section 1206 provides the
Administration.”

Evaluation response. The IG team believes that sustainment is important to the
continued success of the Section 1206 program. We recognized that financial support,
while important, is only one element of sustainment. We modified the recommendation
to remove the emphasis on financial support for Section 1206 project sustainment.




                                            15
Interagency Evaluation of the Section 1206 Global Train and Equip Program
 August 31, 2009                              Report Number IE-2009-007




          This Page Intentionally Blank




                        16
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007



Chapter 3 Program Execution
Summary
For the purposes of this review, the Section 1206 program execution process begins when
the USD(P) delegates management of the approved project to the DSCA and ends when
the training, supplies, and equipment are delivered to the appropriate in-country security
assistance officer, or a designated USG representative.

Issues
As described in the Scope and Methodology (see Appendix C), the IG team conducted
research; interviewed functional managers, process owners, and other stakeholders in the
Section 1206 program; and traveled to eight partner nations to interview U.S. and local
officials on the status of selected Section 1206 projects (see Appendix I). The IG team’s
analysis of the available information identified these issues in two areas that impact the
execution phase of the Section 1206 program:

          Organization and policy, and
          Feedback from Security Assistance Officers and other stakeholders.

Organization and Policy
Execution Oversight
As previously noted, the FY 2009 NDAA extended the Section 1206 authorization to
September 2011 and increased the authorized annual funding from $200 million in
FY 2006 and $300 million for FYs 2007 and 2008, to $350 million for FYs 2009, 2010,
and 2011. Based on this extension, the funding increases, and other indicators described
in this report, there is a need to establish policies and instructions for managing the
Section 1206 program.

As depicted in Figure 2, there are four primary DoD entities—USD (P), DSCA, Military
Departments (MILDEPS), and the Defense Transportation System (DTS)—that manage
and oversee the Section 1206 execution process. These entities are part of the overall
security cooperation system.




                                            17
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007

Role of Office of the Under Secretary of Defense for Policy
The mission statement for the USD (P) is “. . . to consistently provide responsive,
forward-thinking, and insightful policy advice and support to the Secretary of Defense,
and the Department of Defense, in alignment with national security objectives.” 18




Figure 2. Section 1206 Program Execution Process Flow Diagram
Source: Interagency team composite from multiple sources.

Subordinate to the USD (P) is the Office of the Assistant Secretary of Defense for
Special Operations/Low Intensity Conflicts & Interdependent Capabilities
(SOLIC&IC). Under SOLIC&IC, the Deputy Assistant Secretary of Defense for
Special Operations and Counterterrorism office is the DoD lead office responsible for
Section 1206 programs.

The Deputy Assistant Secretary of Defense, Stability Operations, issued the “FY 2007
Section 1206 Interim Guidance Memorandum” on August 21, 2006. This guidance states
that projects “should be designed to meet time sensitive, emerging threats or
opportunities.” Also, in attachment 4 of this memo, a timeline was established that
suggests equipment and supplies should be delivered within 6 to 18 months of
congressional notification. This was further defined in DSCA’s FY 2009 budget
estimate.


18
     USD (P) Web-site, http://www.defenselink.mil/policy/ (April 17, 2009).



                                                     18
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007

Role of the Defense Security Cooperation Agency
The DSCA is subordinate to the SOLIC&IC. The mission of the DSCA is to:
           “Lead, direct and manage security cooperation programs and resources
           to support national security objectives that:
                     • Build relationships that promote U.S. interests.
                     • Build allied and partner capacities for self-defense and coalition
                       operations in the global war on terrorism.
                     • Promote peacetime and contingency access for U.S. forces.” 19

The DSCA directs, administers, and supervises the execution of Section 1206 projects as
well as other security assistance programs, such as the Foreign Military Sales (FMS),
FMF, and IMET programs. 20 The Section 1206 Program Manager is assigned to the
DSCA Programs Directorate. The incumbent oversees the DSCA execution process in
coordination with the Regional (Country) Desk officers in the Operations Directorate, the
Comptroller and others in the Business Operations Directorate, and other DSCA entities,
as appropriate. The Section 1206 Program Manager decentralizes the execution activities
for Section 1206 projects to the appropriate MILDEPS.

For Section 1206 projects, DSCA uses the FMS infrastructure, processes, and procedures
to manage the activities associated with procuring and shipping the approved training and
equipment. The agency establishes a “pseudo-FMS” case file for Section 1206
projects. 21

The Section 1206 proposal serves as the Letter of Request and provides the basis for
developing the LOAs. When projects are submitted for DoD and DOS approval, DSCA
tasks the MILDEPS—specifically, the U.S. Army Security Assistance Command, the
Navy International Programs Office, or the Air Force Security Assistance Center—to
develop the LOA. DoD 5105.38-M, “Security Assistance Management Manual,”
provides the guidance to prepare LOAs. The MILDEPS build the cases so as to meet the
approved total case value, capturing both costs for goods and services, as well as other
LOA charges.

The final LOA lists the items to be procured and shipped and includes other transaction
details, such as:

           administrative surcharges;
           costs;
           delivery estimates;
           conditions and terms;

19
     DSCA Web-site, http://www.dsca.mil/aboutus.htm (April 17, 2009).
20
     DoD Directive 5105.65, para. 5 (Nov. 21, 2003).
21
     DSCA Memorandum, “Guidance for Development of FY09 Section 1206 Programs,” Feb 3, 2009.


                                                       19
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007



            accountability rules for sensitive equipment;
            DTS arrangements and charges; and
            other project specific provisions.

Since DSCA operates on a no-profit and no-loss basis, the LOAs are priced at actual
costs. This includes an administrative surcharge that is 3.8 percent of the costs of the
defense articles and/or services. The surcharge is used to cover the cost of administering
the program. Unlike the FMS procedures, which requires the partner nation to sign the
LOA and pay the costs, the Section 1206 pseudo-LOA is a USG-to-USG document, and,
therefore, the recipient country incurs no obligations. 22

We discovered in our review that as the LOAs are prepared and refined, DSCA develops
the congressional notification package and coordinates with the Office of the Under
Secretary of Defense (Comptroller) to identify the funding from the O&M account.
Since O&M funds are “one-year” monies, management must obligate the funds before
they expire on September 30th. Furthermore, due to the laws governing the use of O&M
funds, there can be no associated civilian or military services beyond the end of the FY.
Therefore, until FY 2008, all business transactions for approved Section 1206 projects
were required to be completed by the end of the fiscal year. However, obligations for
government civilian and military travel are restricted to the current fiscal year. 23

For program management, the IG team noted that there are numerous manuals,
documents, memoranda, cables, briefing charts, and templates that are used to execute the
Section 1206 program. Some of the procedures are described in laws and security
assistance related manuals. Other procedures have been published in various memoranda
and instructions specifically written for the Section 1206 program.

One of the documents that describe the execution of the Section 1206 program is the
“Fiscal Year (FY) 2009 Budget Estimates Defense Security Cooperation Agency
(DSCA),” February 2008. The following statement from that document established the
timeliness or “speed” criterion for Section 1206 pseudo-FMS projects in contrast to
conventional FMS cases:

             “Although the Global Train and Equip authority has been in effect just
             three years, it has rapidly become the gold standard for interagency
             cooperation to meet emerging threats and opportunities because of the
             revolutionary way it is managed. . . . [T]raditional security assistance takes
             three to four years from concept to execution. Global Train and Equip
             authority can respond to urgent and emergent threats or opportunities in
             six months or less.”

22
     Ibid.
23
  NDAA FY 2009, Section 1206 states that DoD can continue to obligate funds from the fiscal year in
which a Section 1206 project was begun into the next fiscal year.


                                                  20
                        Interagency Evaluation of the Section 1206 Global Train and Equip Program
                         August 31, 2009                              Report Number IE-2009-007




As explained in the same document, “Global Train and Equip represents an enduring
military requirement to avoid large-scale military conflicts and reduce stress on
U.S. forces. . . .Metrics are under development to measure operational and strategic
effects. . . .” 24

Role of the Defense Transportation System
According to DSCA guidance, the DTS must be used for all Section 1206 transportation
requirements. 25 The DTS is an integral part of the total global transportation system and
involves procedures, resources, and interrelationships of several DoD, federal,
commercial, and non-U.S. activities that support DoD transportation needs. This process
establishes an integrated transportation system to be used across the range of military
operations providing the most effective use of air mobility, sealift, rail, pipeline, and land
transportation resources from origin to destination.

The Services and the Defense Logistics Agency are responsible for the determination,
collection, and submission of the movement requirements for air mobility, sealift, and
continental U.S. civil transportation to U.S. Transportation Command (USTRANSCOM).

The Commander, USTRANSCOM, provides air, land, and sea transportation services
through the transportation component commands: Air Mobility Command, Military
Sealift Command, and Military Traffic Management Command. 26

The USG rate applies to all transportation costs. DSCA has issued guidance for
assigning an appropriate “delivery term code” for Section 1206 shipments. For
justifiable circumstances, there are waiver provisions to by-pass normal and routine DTS
procedures.

Feedback from Security Assistance Officers and Other
Stakeholders
This section highlights feedback and comments from SAOs and other stakeholders
regarding the execution process.

          Tracking Case Status and Transparency – A common concern among the
           SAOs interviewed was their inability to track the status of their respective
           pseudo-FMS cases. Since DSCA decentralizes the execution of the case to the
           military departments, the SAOs stated that there was no integrated, transparent
           process or reporting system to get timely and accurate information on FMS case
           status and delivery schedules. While studying this issue, the IG team could not
24
     Fiscal Year (FY) 2009 Budget Estimates DSCA.
25
     DSCA Memorandum, “Guidance for Development of FY09 Section 1206 Programs,” Feb 3, 2009.
26
  Joint Publication 4-01, “Joint Doctrine for the Defense Transportation System,” March 19, 2003,
pp. vii-viii.


                                                    21
                        Interagency Evaluation of the Section 1206 Global Train and Equip Program
                         August 31, 2009                              Report Number IE-2009-007

          identify any formal oversight process that enabled updates on case status. The
          Security Assistance Management Manual states that implementing agencies
          should conduct program-level reviews on an event-driven basis using established
          milestones. 27 Based on the information available, the IG team believes the
          tracking issue can be mitigated with regular and recurring integrated project team
          reports or in-process reviews. Additionally, the tracking systems should include
          an integrated data-base to facilitate a bottom-up reporting process and a top-down
          communications system for USD (P), DSCA, MILDEPS, and DTS officials,
          Country teams, COCOM representatives, and other qualified stakeholders.
         Administrative and Funding Discrepancies – SAOs expressed concern over
          discrepancies between the quantity of equipment items listed on the LOA and the
          reduced number of items purchased and delivered. For example, in FY 2006,
          Lebanon was allocated $10.5 million for Section 1206 projects. The LOA
          included about $2.3 million in spare parts for the M113 Armored Personnel
          Carrier. According to the SAO, Lebanon received approximately $1.3 million in
          M113 spare parts—56 percent of the LOA’s value. As presented in their
          November 2008 briefing, DSCA reported that 94 percent of the M113 spare parts
          were shipped to Lebanon. For FMS cases, the IG team noted that the DSCA
          “Financial Management Review — Case Financial Status Reporting Format for
          Foreign Military Sales” provides a workable template for capturing and sharing
          financial information.
          Another Lebanon example involves an allocation for helicopter parts with a value
          of $5.5 million. According to the SAO, $598,000 worth of helicopter parts were
          delivered. The costs for that transaction included $600,000 in transportation fees
          and $179,000 in administrative fees—a total of $779, 000 in fees to deliver
          $598,000 of goods. 28 According to the IG team’s review of available documents,
          the U.S. Army Aviation and Missile Command (AMCOM), in coordination with
          the U.S. Army Security Assistance Command (USASAC), could not obligate the
          remaining $4.1 million before the O&M funds expired. (See Appendix H,
          Lebanon Case Study.)
         DTS and Section 1206 Priority - The requirement to use the DTS delayed the
          delivery of the Section 1206-funded boats to the Dominican Republic and
          Panama. The IG team noted that, to manage the shipments in a cost effective
          way, DTS aggregates shipments until there is a full load for the region or
          destination. To avoid long delays, U.S. Southern Command (SOUTHCOM)
          project managers coordinated a space-available boatlift in lieu of conventional
          DTS transport arrangements. Consequently, the equipment was delivered in time
          to meet project goals and costs. However, this is not a methodical and reliable
          transportation solution.




27
     Security Assistance Management Manual, DoD Directive 5105.38-M, Table C6.T6.
28
     As documented in USASAC’s pseudo Letter of Offer and Acceptance.


                                                  22
                       Interagency Evaluation of the Section 1206 Global Train and Equip Program
                        August 31, 2009                              Report Number IE-2009-007




        Incompatible Trucks - USASAC, through TACOM, 29 ordered trucks that were
         incompatible with local fuel specifications for the Dominican Republic and
         Panama. A delivery delay ensued because the contractor had to retrofit the fuel
         systems on the trucks.
        No Technical Manuals - Technical manuals did not accompany the Excess
         Defense Articles (EDA) trucks delivered in 2007 to Lebanon. 30 During the IG
         team’s visit, Lebanon Armed Forces (LAF) officials stated that without technical
         manuals, operating and maintaining the trucks is problematic. Although the LAF
         had requested the manuals through the SAO, as of April 2009, the Lebanon SAO
         reports that the manuals were no longer available through FMS channels.

Program Guidance
Effective program guidance codifies and institutionalizes policies, responsibilities,
procedures, and reporting requirements for the Section 1206 program. Such guidance
should provide appropriate links to existing laws and DSCA publications and incorporate
the various documents, memoranda, instructions, cables, and templates in one single
publication.

Considerations for DoD Directive and/or Instruction:

             1. Define policies, roles, and responsibilities for all Section 1206
                management and oversight components;
             2. Re-engineer the process for managing Section 1206 projects to streamline
                the procurement and DTS shipping procedures and to establish milestones
                and timeliness standards; and
             3. Establish DSCA and MILDEPS reporting (e.g., Integrated Project Team,
                In-Process Review, etc.) and data base requirements to provide tracking
                and transparency information for program managers, security assistance
                officers, and other stakeholders.
Initially, DoD did not establish a policy manual for the Section 1206 program because it
was only authorized for one fiscal year. However, the NDAA for Fiscal Year 2007
extended the Section 1206 program to 2008 and the NDAA for Fiscal Year 2009
extended the program to the end of fiscal year 2011. In 2008, DoD and DOS requested
that the Congress provide permanent Section 1206 authority.

29
 TACOM is the current official name of the organization formerly known as the Tank-Automotive and
Armaments Command.
30
  The Center for Strategic Studies of the CNA Corporation also noted this issue in their report of April
2008.




                                                    23
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

As of 2009, the Section 1206 program, which has been approved for 53 countries, lacks
the institutionalized policy guidance necessary to sustain its continuation and expansion
to ensure its implementation is consistent with program objectives.



Observation 2: Formal Policy—DoD did not have a directive or instruction that
defined authorities, roles, responsibilities, and instructions for Section 1206 program
implementation. DoD had not previously provided Section 1206 policy guidance since
the program was viewed as short-term. Without clear and comprehensive guidance,
however, action officers and SAOs were unable to implement the program efficiently and
effectively, and its objectives may not have been fully realized.



Recommendation 2: The Under Secretary of Defense (Policy), in coordination with
the Department of State’s Bureau of Political Military Affairs, should incorporate
policies, responsibilities, procedures, and reporting requirements for the Section
1206 program into existing Department of Defense Directives or Instructions.


Management comments. The Deputy Director Defense Security Cooperation Agency
stated they were willing to support the development of a DoD issuance that further
institutionalizes policies, responsibilities, procedures, and reporting requirements for the
Section 1206 program. They commented that there is an existing body of DoD issuances
upon which a Section 1206-specific DoD issuance could be built.

Evaluation response. The IG team agrees that DoD could use existing issuances as a
vehicle for institutionalizing the Section 1206 program and modified the
recommendation.

Observation 3: Logistics—Section 1206 project execution with respect to shipping
equipment and supplies did not always meet the established 6 to 18 month goal for
delivery to meet current or emergent threats, as indicated in Deputy Secretary of Defense
for Stability Operations Memorandum, dated August 21, 2006, Subject: FY 07 Section
1206 (Authority to Build the Capacity of Foreign Military Forces).


Recommendation 3: The Director, Defense Security Cooperation Agency should
coordinate with the appropriate theater commands to ensure that the 6 to 18 month
timeline for delivery of Section 1206 equipment and supplies is factored into overall
validated theater movement priorities and that those priorities are communicated to
U.S. Transportation Command for timely movement in the Defense Transportation
System.


Management comments. The Assistant Secretary of State for Political Military Affairs
commented that [Section] “1206 is supported by the same defense industrial base and

                                             24
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

acquisition system that supports U.S. military and foreign militaries . . . in many cases the
time it takes to procure and deliver defense articles is no shorter than through any other
funding stream.”

The Commander, U.S. Transportation Command suggested that Recommendation 3 be
reworded to state that the DSCA should coordinate with the appropriate theater command
to establish Section 1206 shipment priorities and factor them into theater movement
priorities.

Evaluation response. The IG team agrees with U.S. Transportation Command’s
recommendation and reworded Recommendation 3.

Observation 4: Fiscal—Embassies and their Security Assistance Offices with Section
1206 project responsibility were unable to track actual expenditures and obligations due
to a lack of transparency in the FMS fiscal management system.


Recommendation 4: The Director, Defense Security Cooperation Agency, in
coordination with the Office of the Secretary of Defense Comptroller, should
reestablish and implement a periodic report that tracks actual obligation and
expenditure of funds, funds rendered unavailable for obligation, and other financial
data similar to the information that is included in the Defense Security Cooperation
Agency “Financial Management Review — Case Financial Status Reporting Format
for Foreign Military Sales” cases.



Management comments. The Commander, U.S. Central Command commented that
adding more bureaucratic requirements [reports and admin activity] might slow down the
[delivery of Section 1206 gear] process even more.

The Deputy Director, Defense Security Cooperation Agency, commented that they
prepare quarterly updates providing an overview of the status of each Section 1206
pseudo-case for equipment deliveries, training results, and financial execution data.

Evaluation response. The IG team believes that a report that tracks Section 1206
obligations and expenditures is essential for both internal controls and transparency to the
country teams. DSCA established quarterly report requirements, but they have not
completed one since November 2008. DSCA needs to complete the reports in
accordance with its policy.




                                             25
Interagency Evaluation of the Section 1206 Global Train and Equip Program
 August 31, 2009                              Report Number IE-2009-007




          This Page Intentionally Blank




                        26
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007



Chapter 4 Implementation Process
Summary
The implementation process begins when the approved training and equipment are
delivered to the partner nation. For the eight countries visited, implementation of Section
1206 projects had positive effects in assisting the partner nations to improve their security
capabilities. Involvement of the partner nation is one of the critical elements of success,
the earlier the better. The IG team identified two management opportunities to improve
the implementation process. First, DoD and DOS should work with the Joint Staff to
enhance participation of U.S. military personnel in training activities and promote
military-to-military interface with partner nations; and second, they should issue
guidance to COCOMs and country teams requiring all security assistance officers get
basic acquisition training and formal training on the FMS process.

Building Partner Nation Capacity
Bilateral and multilateral collaboration and coordination are key elements for the
effective implementation of Section 1206 projects.

As reported to the IG team, the initial data call for FY 2006 project proposals had a very
short suspense. Factors contributing to this condition included: (1) Congress did not
enact the FY 2006 NDAA until January 6, 2006; (2) DoD and DOS had to develop
preliminary procedures; and (3) the Defense-wide O&M funds had to be identified from a
fiscally constrained budget and then obligated by September 30, 2006. Consequently, the
Joint Staff did not dispatch the first data call until the spring of 2006. Embassies, SAOs,
and COCOMs had about two weeks to develop and submit project ideas. According to
USD(P) officials, Section 1206 project proposal templates did not exist at that time.

As documented in the country reports (Appendix I), the short suspense precluded timely
consultation with some partner nations and limited their participation in developing the
proposals.

      Dominican Republic naval officials reported that they preferred surveillance
       equipment to enhance their intelligence capability, rather than the intercept boats
       that were provided under SOUTHCOM’s Enduring Friendship (EF) plan—a U.S.
       regional maritime security assistance plan.
      In Nigeria, the government was not familiar with the Section 1206 proposal and
       questioned U.S. intentions; the lack of consultation resulted in a prolonged
       national decision-making process and delayed implementation.




                                             27
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007


In contrast, consultation may result in positive program development:

      In FY 2007, the improved dialogue between embassy personnel in Indonesia and
       the host government resulted in an expansion of the FY 2006 Maritime Domain
       Awareness (MDA) project into the Sulawesi-Sulu tri-border region.

The above examples demonstrate the importance of open dialogue in obtaining the
partner nation’s concurrence with a proposed project before submission. In addition to
bilateral arrangements between the partner nation and the USG, there are multilateral,
regional political, economic, and security agreements among several partner nations that
must be coordinated in order for Section 1206 to be effective.

   Table 5. Section 1206 FY 2006 Regional Project Descriptions ($M)
                                 Countries
         Project Name                                  Project Description/Objectives
                                  Involved
    Caribbean Basin:            Dominican         Provides interoperable communications
    Forward Defense of the      Republic,         and computers with training and technical
    U.S. Homeland ($14.4)       Panama            support to establish a joint maritime
                                                  command, control, and communications
                                                  architecture to support counterterrorist
                                                  operations.
    Gulf of Guinea:             Nigeria,          Establishes a Regional Maritime
    Countering Threats to       Sao Tome          Awareness Capability (RMAC) through the
    U.S. Energy Security        and Principe      use of commercially available equipment;
    ($6.8)                                        promotes stability and enhances
                                                  counterterrorist capabilities.
    Trans-Sahara African        Algería, Chad,    Helps develop a secure multinational
    Countries: Securing the     Morocco,          information network to share and store
    Region Against Terrorists   Nigeria,          information effectively. Enables countries
    ($6.2)                      Senegal,          to act on information that is essential to
                                Tunisia           disrupt and attack terrorist networks, and
                                                  conduct peace and security operations.
    Note: This is an extract of only the Regional Section 1206 Programs from FY 2006
    approved projects list. Source: USD(P)



As summarized in Table 5, Nigeria and Sao Tome and Principe are among the countries
in the Gulf of Guinea region that cooperate with one another on regional maritime
awareness capability. Similarly, countries in the Pacific region can benefit from the
MDA program and share information as they build their regional interdiction capacity to
conduct CT operations in and around their territorial waters.

In addition, SOUTHCOM’s EF is another example of a U.S. maritime initiative
supported by Section 1206 funding. The EF initiative facilitates a regional, multi-year
maritime security assistance program that enhances the capability of Central American
and Caribbean partner nations to patrol their sovereign waters. The EF initiative provides
a structured framework to enhance cooperation in CT, counternarcotics, and law
enforcement activities. Caribbean nations participating in EF are benefiting from



                                                 28
                      Interagency Evaluation of the Section 1206 Global Train and Equip Program
                       August 31, 2009                              Report Number IE-2009-007

coordinated maritime security exercises, technical assistance, combined training venues,
standardized command, control, and communications protocols, and logistical support
arrangements.

In 2008, SOUTHCOM began Enduring Friendship-Caribbean and Central America (EF-
CCA). The EF-CCA program is a key initiative supported by Section 1206 to address
potential terrorist threats in the region. Within a cooperative regional environment, EF-
CCA seeks to improve the capabilities of Caribbean and Central American partners to
interdict and disrupt terrorists who might leverage illicit transnational routes and
uncontrolled areas to threaten the United States and/or U.S. neighbors. EF-CCA is a
long-term endeavor and seeks to create a multi-layered CT posture of mutual benefit to
the U.S. and regional partners. However, in 2008, the Chairman of the U.S. Senate
Committee on Armed Services sent the Secretary of Defense two letters 31 expressing the
committee’s concern for the use of Section 1206 funds for counter narcotics efforts, and,
according to USD (P) officials, DoD and DOS will no longer use Section 1206 projects to
support EF-CCA.

Implementing Training Projects
As summarized in Table 6, for the countries visited, five of the six countries with
FY 2006 funded training for Section 1206 projects had completed their training:

Table 6. Training Status for FY 2006 Projects
                                Section
          Country                 1206                        Status (as of 09/2008)
                                Training
Dominican Republic                Yes         Completed
Indonesia                         Yes         Not Completed. Did not complete training for IMSS
                                              program pending equipment installation at additional
                                              sites.
Lebanon                            No         Equipment Only
Nigeria                            Yes        Not Completed. Did not complete training for RMAC
                                              program—site not ready
Panama                             Yes        Completed
Sao Tome and Principe              Yes        Completed
Sri Lanka                          Yes        Completed
Source: Security Assistance Organizations for the countries listed.




31
  Chairman, U.S. Senate Committee on Armed Services letters, dated September 25, 2008 and October 2,
2008. Note: Both letters refer to Operation Enduring Freedom (OEF) and not Enduring Friendship (EF).



                                                 29
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007




           Sailors from Maritime Expeditionary Security Squadron Two conduct
       entry control point training with Sailors from Panama during PANAMAX 2008
                   (SOURCE: www.southcom.mil/AppsSC/photoGallery.php)

For FY 2006 projects, contractors conducted training in most of the Section 1206
projects. This resulted from the O&M rules and restrictions that limit obligations to the
current year. Interviews with country teams and partner nation units revealed that
contractor-provided training was satisfactory. However, many partner nation officials
stated that training with U.S. military personnel would be more beneficial. The short
period between the obligation of funds and the end of the fiscal year limited opportunities
to organize U.S. military training teams to deliver the training. Consequently, the
benefits of military-to-military interaction were lost. The military-to-military process can
help formulate assistance projects, negotiate compromises for problem solving and
decision making, and facilitate capacity building. Section 1206-funded training could
help achieve these benefits.


Observation 5: Military-to-Military Training—The Section 1206 training projects
should enable military-to-military cooperation and bilateral relationships with partner
nations. The IG team observed that contractor training was used in order to comply with
the statutory requirements to obligate the approved Operations and Maintenance funding
within the same fiscal year. As a result, the potential benefits of military-to-military
training may have been compromised.



Recommendation 5: The Director of the Joint Staff, in coordination with the Under
Secretary of Defense (Policy), should establish guidance for military-to-military
training that supports Section 1206 projects.




                                            30
                      Interagency Evaluation of the Section 1206 Global Train and Equip Program
                       August 31, 2009                              Report Number IE-2009-007

Management comments. The Commander, U.S. Africa Command commented that the
deadline for obligation of funding for training not only pushed the boundary in the
development phase, causing case development to be rushed and, at times, not fully
funded, but precluded the use of military personnel from being used for associated
training.

Evaluation response. The IG team agrees with management’s comment about funding;
however, the NDAA for FY 2009 extended funding obligations into the next fiscal year.
The use of travel funds for training comes under different regulations and remains a
problem not addressed by the FY 2009 NDAA.

Implementing Equipment Projects
     Table 7. Equipment Status for FY 2006 Projects
                                  Section 1206
             Country                                       Status (as of March 2009)
                                   Equipment
     Dominican Republic               Yes          Delivered
     Indonesia                        Yes          Delivered
     Lebanon                          Yes          95 % Shipped (measured by cost) 32
     Nigeria                          Yes          Delivered
     Panama                           Yes          Delivered
     Sao Tome and Principe            Yes          Delivered
     Sri Lanka                        Yes          Delivered
     Source: Summary from IG Assessment Team country visits.


Project Delays
As of March 2009, Table 7 summarizes the status of Section 1206 equipment deliveries.
Some equipment projects encountered delays. (See Appendix I, Country Reports.) Some
projects involved combining Section 1206 funds with funds from other U.S. Government
sources. These “shared costs” were an issue in several countries:

        In the Gulf of Guinea RMAC project, Section 1206 funded 38 percent of the
         initiative. The project expected funding from the Counter-Narcoterrorism
         Technology Program Office, DoD’s lead office for developing technology for
         interagency and multinational operations to disrupt and deter narcoterrorism
         activities. However, the funds were not released, adversely affecting Nigeria’s
         RMAC project implementation process.
        Sri Lanka and Indonesia had to fund land acquisition, site preparation, and
         construction in order to support the equipment procured through Section 1206.
         The time required to identify the appropriate national funds led to delays in
         getting the equipment operational.

32
  DSCA reduced the overall case value by approximately 20 percent. Approximately $1million of UH-1H
helicopter parts were not ordered.




                                                 31
                       Interagency Evaluation of the Section 1206 Global Train and Equip Program
                        August 31, 2009                              Report Number IE-2009-007

Security Assistance Officers—Selection, Preparation and Training
Security Assistance Organization (SAO) personnel play a primary role in the
development and coordination of Section 1206 proposals and in the implementation of
the approved projects. 33 During the execution phase DSCA manages the acquisition
process to procure and deliver the required training and equipment (see Chapter 3,
Program Execution). As previously described, DSCA essentially applies the FMS
acquisition process to Section 1206 “pseudo” cases. Therefore, to facilitate
implementation, SAO personnel should be familiar with DSCA processes for acquisition
and shipping.

The IG team surveyed the SAO personnel in the eight countries visited. The survey
results were:

        Six of eight SAO officers received training through the Defense Institute of
         Security Assistance Management (DISAM). One officer was certified at level 3,
         the highest level of Acquisition Professional Development Program
         certification. 34
        Two officers had no training on the FMS process.
        Two officers who attended DISAM training opined that the coverage of the
         Section 1206 program was inadequate.
        Six of the officers had no formal training in acquisition processes used to procure
         Section 1206 training and equipment.

Although circumstances vary from embassy to embassy, the USD (P) should ensure all
SAO personnel involved in Section 1206 cases are properly trained and indoctrinated in
accordance with SAO required training. 35 Alternatively, SAO personnel could receive
Section 1206-specific training at venues such as regional or DoD-wide SAO conferences.

Observation 6: Security Assistance Officer Training—Security Assistance Officers
reported that they received insufficient training on security assistance, basic acquisition
process, and/or the Section 1206 program, which they believed was necessary to perform
their duties and responsibilities effectively.


33
  SAO personnel assigned to U.S. embassies are responsible for security cooperation. Policies, roles, and
responsibilities for security assistance functions are stipulated in several DoD publications—most notable
DoDD 5105.75, “Department of Defense Operations at U.S. Embassies,” December 21, 2007, and DoD
Instruction 5132.13, “Staffing of Security Cooperation Organizations (SAOs) and the Selection and
Training of Security Cooperation Personnel,” January 9, 2009.
34
  This program was authorized by the Defense Acquisition Improvement Act (DAWIA) Pub. L. 100-163
(1990), Section 1056.C.3.
35
  DoD Instruction 5132.13, “Staffing of Security Cooperation Organizations (SAOs) and the Selection and
Training of Security Cooperation Personnel,” January 9, 2009.




                                                    32
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007


Recommendation 6: The Director, Defense Security Cooperation Agency should
ensure all security assistance officers selected for assignment to Section 1206
countries complete training in accordance with DoDI 5132.13, "Staffing of Security
Cooperation Organizations (SCOs) and the Selection and Training of Security
Cooperation Personnel", January 9, 2009, to include training on Foreign Military
Sales and the acquisition process.


Management comments. The Commander, U.S. Central Command commented that “if
the personnel system assigns personnel who lack experience with training and equipping
foreign forces in CT . . . and deploys them without any formal training, results will
suffer.” “At the very least, DSCA and DISAM should publish a fact sheet on how to
process [Section] 1206 requests/programs.”

The Deputy Director, Defense Security Cooperation Agency commented that DoD
Instruction 5132.13 “requires all personnel assigned to Security Cooperation
Organizations complete training through the Defense Institute of Security Assistance
Management (DISAM).” The Deputy Director also stated that this “training provides
personnel assigned to Security Cooperation Offices with a critically important
understanding of the Foreign Military Sales and acquisition processes . . . .”

Evaluation response. A review of the DISAM and DoD Instruction 5132.13 did identify
the requirement for Foreign Military Sales and acquisition training. We modified our
recommendation to acknowledge the requirement; however, based on our training survey
given to eight of the SAOs in the countries the IG team visited, training in FMS and the
acquisition process was lacking.

Safety Issue
During the IG team visit to Lebanon, the IG team observed a safety issue for the Section
1206 project that warrants particular attention. The IG team visited the Lebanese Armed
Forces (LAF) ammunition depot at El Loueize and had discussions with the Commander.
The IG team noted that most of munitions stored at the depot were U.S.-made. The
commander of the ammunition depot stated that two LAF officers had received
ammunition management training in the U.S., but that his non-commissioned officers and
soldiers were receiving training in Lebanon from French military training teams. LAF
officials expressed a preference for U.S. trainers for standardization and consistency.
The IG team believes that munitions handling safety training would be beneficial for all
countries receiving munitions provided through Section 1206 projects.

Observation 7: Munitions Training—The Lebanese Armed Forces are receiving U.S.
munitions without U.S.-provided safety training. The IG team believes that all countries
receiving munitions through Section 1206 projects would benefit from training in
munitions handling, storage, and security.



                                           33
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007




Recommendation 7: The Security Assistance Officers in countries receiving
munitions through Section 1206 projects should arrange to provide partner nation
personnel with U.S. training to ensure safe handling, storage, maintenance, and
proper security for U.S.-supplied munitions.


Management comments. The Deputy Director, Defense Security Cooperation Agency
commented that “The Lebanese Armed Forces have received both specialized explosive
ordnance disposal training and munitions safety training from the United States.”

Evaluation response. At the time of the IG team visit to Lebanon, the only munitions
training provided to Lebanese Armed Forces was provided by French military training
teams. This situation raised the safety issue for other countries receiving munitions
through the Section 1206 program. At the suggestion of Under Secretary of Defense
(Policy) Special Operations/Low-Intensity Conflict & Interdependent Capabilities
officials, this recommendation was reworded to include providing safety training to all
partner nation personnel receiving munitions.




                                           34
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007



Chapter 5 Section 1206 Program Results
Summary
Potentially, partner nations can use Section 1206 training and equipment for
counterterrorism at two levels—conducting direct action against terrorist forces and
preempting terrorist attacks by asserting national power over uncontrolled borders and
ungoverned spaces.

Of the eight Section 1206 countries visited, six demonstrated added capability
improvements within one year of project approval. 36 Although these initial results are
encouraging, continued effectiveness requires sustainment efforts by countries receiving
Section 1206 projects.

For the eight countries visited, the IG team concluded that the respective Section 1206
projects not only enhanced partner nation’s counterterrorist capacity, but also provided a
tool for building regional cooperation to counter terrorism. 37

Improving Partner Nations’ Operational and Security
Capabilities
A close examination of the FY 2006 Section 1206 funded projects revealed examples of
progress, lessons learned, and opportunities for improvement.

The IG team identified definitive examples that the Section 1206 program is working,
albeit in incremental steps:

          Dominican Republic: Military forces acquired interceptor boats to enhance their
           ability to intercept hostile vessels. In one case, the Dominican Navy intercepted
           two Cuban nationals attempting to infiltrate the Dominican border. Dominican
           Republic officials expressed concern that they were not consulted when the
           project proposal was drafted and commented that they had different priorities for
           countering terrorism. They nevertheless appreciated the Section 1206-funded
           equipment and SOUTHCOM’s regional EF program.
          Georgia: Section 1206 equipment—mostly two-way radios for command and
           control and secure communications—increased the Georgian armed forces
           communications capability and facilitated their deployment to Afghanistan and
           Iraq as a coalition partner. Georgian officials opined that the process between
           project approval and equipment delivery was too long.
          Indonesia: The Armed Forces of the Republic of Indonesia acquired surveillance
           equipment under the Section 1206 program and improved its ability to monitor
36
     Dominican Republic, Georgia, Indonesia, Lebanon, Sao Tome and Principe, and Sri Lanka.
37
  Readers can review these results in the larger context of individual countries in Appendix I, Country
Reports.


                                                    35
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007

           and control maritime traffic along the Malacca Strait—one of the most important
           shipping lanes in the world.
          Lebanon: For FY 2006, Section 1206 financed spare parts for vehicles and
           UH-1H helicopters that enabled the Lebanese Armed Forces (LAF) Air Force to
           execute its first deployment to southern Lebanon in more than 30 years. The
           helicopter parts increased mission available aircraft by 40 percent; thus, allowing
           the LAF to conduct sustained bombing and medevac operations. 38 In addition,
           the LAF used the improved capability to quell successfully the Fatah al Islam
           insurgents’ uprising in Nahr al-Barid, the northernmost Palestinian refugee camp.
          Nigeria: Section 1206 provided maritime surveillance equipment, which was not
           yet operational in June 2008. Nigeria will use this capability to monitor traffic in
           the Gulf of Guinea and in the Niger River delta. Nigeria did not receive all the
           equipment originally planned. Even so, Nigerian Navy officials were very
           positive about the Section 1206 program.
          Panama: Section 1206-funded radios improved Panama’s maritime surveillance
           and command and control capabilities. The National Maritime Service (coast
           guard) officials stated that this capacity is enabling their ability to meet a critical
           need in their efforts to counter terrorism.
          Sao Tome and Principe: The installation of new radar stations provided a
           capability to monitor coastal waters and detect and identify “friend or foe”
           vessels.
          Sri Lanka: Section 1206 equipment and assistance improved the Navy’s
           capability to conduct maritime surveillance and monitor the movements of the
           LTTE. The LTTE is a terrorist organization that wants to establish an
           independent state in Sri Lanka. The Navy has effectively engaged the LTTE
           using the capabilities of the MDA system
       Aside from the specific applications of the program in the individual countries, the
       Section 1206 process has improved regional coordination and cooperation activities
       and facilitated security arrangements. To foster bilateral relationships, the SAOs
       developed concept briefings and strategies and shared the information with partner
       nation civil authorities.

See Appendix I for additional details and program results by country.




38
     LAF briefing to visiting joint DoD-DOS OIG team July 2008.




                                                    36
                      Interagency Evaluation of the Section 1206 Global Train and Equip Program
                       August 31, 2009                              Report Number IE-2009-007


Synergy—Leveraging Combatant Commands’ Regional Vision
During the planning and execution phases of this project, the IG team met with Section
1206 points of contact at the combatant commands. 39 As previously described, the
COCOMs, in collaboration with the DOS Chief of Missions, play a significant role in
initiating, coordinating, prioritizing, and approving Section 1206 proposals for their areas
of responsibility (AORs). Figure 3 illustrates the relationship between AORs and DOS
regions.




 Figure 3. COCOM Areas of Responsibility and State Department Regions
 Source: Office of the Geographer, Bureau of Intelligence and Research, U.S. Department of State

Interviews with COCOMs’ staff revealed several advantages and “lessons learned” for
building regional capacity and interoperability in their respective areas of operations.
Some general examples follow:

        COCOMs designed Section 1206 projects to build interoperable command and
         control functions for countries within their AOR.


39
 United States Africa Command, United States European Command, United States Central Command,
United States Southern Command, United States Pacific Command, United States Special Operations
Command


                                                  37
                        Interagency Evaluation of the Section 1206 Global Train and Equip Program
                         August 31, 2009                              Report Number IE-2009-007

        COCOMs recognized that regional strategies are required to prevent the terrorists’
         freedom of movement through paths of least resistance. Without such strategies,
         pressure applied to correct a weakness at one point will push the terrorists to
         relocate to another.
        U.S. European Command (EUCOM) and U.S. Africa Command (AFRICOM)
         initiated an Intelligence Capacity Building project in which intelligence officers
         from at least seven African countries attended a combined training course. Thus,
         this initiative provided opportunities not only to strengthen the individual’s skills,
         but also to encourage information sharing and coordination among countries that
         have little history or tradition of working with one another.
        The RMAC project for the Gulf of Guinea is designed to exploit the interoperable
         radar and communication systems that will eventually cover the entire Gulf. Sao
         Tome and Principe was the first partner nation to set-up the RMAC system,
         followed by Nigeria. The Section 1206 funded sites are now positioned to
         monitor coastal maritime traffic and share surveillance information.
        SOUTHCOM organized combined training courses for AOR countries. As in the
         EUCOM/AFRICOM example, SOUTHCOM believes such venues will foster
         future relationships among the countries and their counterterrorist units and
         facilitate regional cooperation.
        Panama cooperated with the U.S. and other regional partners in PANAMAX
         2008, a joint and multi-national training exercise.

Managing Impediments

For four of the eight countries visited, the IG team observed that the FY 2006 projects for
Indonesia, Nigeria, Panama, and Sao Tome and Principe did not include a comprehensive
explanation of the concept of operations (CONOPS). CONOPS should describe how the
Section 1206-provided training and equipment will be employed to achieve desired
objectives or a particular end state. The Department of Defense’s official dictionary, the
DOD Dictionary of Military and Associated Terms, defines a “concept of operations” as a
“verbal or graphic statement that clearly and concisely expresses what the joint force
commander intends to accomplish and how it will be done using available resources. The
concept is designed to give an overall picture of the operation.” 40 CONOPS are built to
maximize the combat effectiveness and define timing, roles, and responsibilities of
agencies and personnel involved in the operation.

40
  JP 1-02, DOD Dictionary of Military and Associated Terms, 12 April 2001, as amended through
17 October 2008 (http://www.dtic.mil/doctrine/jel/doddict). A CONOPS is an account of how a set of
capabilities will be employed to achieve desired objectives or a particular end state. A CONOPS will
usually include a statement of the goals and objectives of the system; the strategies, tactics, policies, and
constraints affecting the system; the organization, activities, and interactions among participants and
stakeholders; a clear statement of the responsibilities and authorities delegated; specific operations
processes for fielding the system; and the processes for initiating, developing, maintaining, and retiring the
system.



                                                      38
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007

The SAO should work with partner nation military to prepare CONOPS that explains
how the Section 1206 funded equipment and training will be used to support the
counterterrorist mission. In turn, the SAOs or the equivalent offices in the embassies
should coordinate with the country team and their respective COCOM to ensure joint
CONOPS are well formulated and articulated to support Section 1206’s objectives.

Observation 8: CONOPS Needed—Four of the eight Section 1206 program countries
evaluated did not have a CONOPS which would describe the overall strategy, purpose,
resource requirements, timing, roles and responsibilities, and actions necessary to
implement the project. Having a CONOPS would significantly assist country teams and
partner nations to implement Section 1206 projects.



Recommendation 8: The Under Secretary of Defense (Policy), in coordination with
the Director of the Joint Staff and Department of State’s Bureau of Political
Military Affairs, should direct SAOs to work with partner nations to develop a full
Concept of Operations for Section 1206 projects by the final approval of the project.


Management comments. The Commander, U.S. Central Command stated that “A
published CONOPS for [Section 1206] projects is a great idea on an application level. A
CONOPS is a much better way to make a project proposal than the current project
nomination form now in use.”

The Deputy Director, Defense Security Cooperation Agency commented “that requiring
partner nations demonstrate a complete Concept of Operations for the use of [Section]
1206 assistance may limit critical flexibility that Section 1206 provides. There may be
other steps that SCOs could take to improve ongoing dialogue with partner nations
regarding equipment and training provided under the [Section] 1206 authority.”

Evaluation response. The IG team reworded the recommendation by adding that SAOs
should work with partner nations to develop CONOPS and eliminated the requirement to
issue guidance that makes Section 1206 contingent upon the agreement to develop a
CONOPS.

Metrics: Outputs and Outcomes
The Principal Deputy Undersecretary of Defense (Policy) has announced plans to
establish performance measures (metrics) for the Section 1206 program. 41 We encourage
management to expedite the development of metrics of effectiveness and to undertake an
assessment of Section 1206 as a building partnership capacity activity.

Outputs could include the delivery of equipment and the completion of training, for
example, with respect to individual projects. Outcomes are used to measure the end
41
     DoD Fiscal Year 2009 Budget Request Summary Justification, February 4, 2008, page 104.



                                                    39
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

results. Outcomes would include, for example, the effects that projects produced with
respect to counterterrorist or stability operations goals and objectives.

For the purpose of illustration, Dominican Republic’s Section 1206 project “Caribbean
Basin: Forward Defense of the U.S. Homeland” provided for:

       Interoperable communications equipment with training;
       Intercept boats with navigation and communications aids; and
       Training for Dominican Republic crews at Ft. Myers, Florida.

Under this scenario, the SAO could develop a set of output-based metrics that would
quantify the readiness of the intercept boats and operational status of command and
control assets. An example of appropriate output metrics would be:

       Number of patrol missions conducted per month,
       Crew availability status,
       Crew to boat ratio,
       Mission capable rates (the percentage of equipment capable of performing a
        mission), and
       Maintenance in-commission rates.

Embassies and their SAOs should develop the output metrics for their Section 1206
projects. SAOs should coordinate the development of metrics with the COCOM to
obtain acceptance and approval. They should also report the results of measuring outputs
to the COCOMs.

In addition, COCOMs in coordination with Embassies and SAOs, should develop
outcome metrics. As one approach to determine outcomes, the respective COCOMs
could develop a regional exercise, such as the developing countries combined exercise
program, to measure capabilities to achieve project objectives. These metrics should
gauge the effectiveness of the Section 1206 program in producing the intended results.

The lessons learned and best practices from the metrics collected should be shared among
COCOMs, Section 1206 project Embassies, Joint Staff, and USD(P).

Observation 9: Metrics Initiated—Section 1206 program officials have announced
plans to establish metrics to measure the management and results of Section 1206
projects.




                                            40
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007




Recommendation 9: The Under Secretary of Defense (Policy), in coordination with
the Joint Staff J-5 and the Combatant Commands, should develop metrics of
effectiveness for building Section 1206 partnership capacity and establish clearly
defined outputs and outcomes.


Management comments. The Commander, U.S. Central Command non-concurred with
Recommendation 10 (now Recommendation 9) stating the requirement to establish
metrics would be an unplanned and unresourced mission that “would require many
currently unavailable man-hours.” They also stated that metrics “would present an
unacceptable security risk and would communicate to our partners that we do not trust
them to utilize capabilities provided to them.”

Evaluation response. We agree that reporting program metrics has the potential to
become burdensome. The Under Secretary of Defense (Policy) stated they planned to
“undertake a comprehensive review to develop metrics for Section 1206 as a building
partnership capacity activity.” Combatant Commanders will be able to influence
reporting requirements during the development process.




                                           41
Interagency Evaluation of the Section 1206 Global Train and Equip Program
 August 31, 2009                              Report Number IE-2009-007




          This Page Intentionally Blank




                        42
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007



Chapter 6 Additional Observations
Summary
The preceding chapters have followed the sequence of events over the life of an
individual Section 1206 project, from selection, through execution and implementation,
to results and sustainment. This chapter provides the IG team’s observations on
compliance with the law, cooperation between DoD and DOS, and the benefits of the
Section 1206 program on U.S. foreign relations.

DoD and DOS have conducted the program in compliance
with the law.
Officials involved in the Section 1206 program developed a proposal selection process
designed to ensure that projects fulfill the intent of the statute. DoD and DOS guidance
to COCOMs and embassies reflects the requirements in the NDAA of 2006, as amended.
Legal advisers at DoD and DOS reviewed all proposals to ensure that they fulfill the
statute’s intent.

Section 1206 authorizes assistance to foreign militaries. Although Panama’s Coast Guard
performed a military function, Panama does not have a Ministry of Defense under which
this unit could be organized. A legal interpretation, however, held that the maritime
security force was nevertheless military in its function. The Congress partly addressed
this issue in FY 2009 by adding a provision to expand the program’s eligibility criteria to
include maritime security forces.

Not only must proposals fulfill the purposes of the statutes authorizing the Section 1206
program, but they must also stay within the limitations on assistance under the Arms
Export Control Act and the Foreign Assistance Act. 42 Since laws restricting the use of
FMF and IMET also apply to Section 1206 projects, DoD and DOS lawyers review all
proposals to determine whether they are permissible under those laws. The IG team
found no evidence that decision-makers had approved any projects outside the program’s
statutory mandate.

DoD-DOS cooperation has been effective.
The IG team concluded that cooperation between DoD and DOS is effective. DOS
participation in the program has been considerable—as the legislation requires. This
DOS participation includes cooperation between embassies and COCOMS and between
officials of both departments in Washington. The Section 1206 program appeared to be a
model of interagency cooperation to achieve common goals.

42
     See fuller explanation in Appendix F, Sanctions, Human Rights, and Section 1206.




                                                     43
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007

A strength of the program is the combination of perspectives and
resources of ambassadors and COCOMs.
Section 1206 mandates cooperation between DoD and DOS. Both departments
participate in the proposal formulation and selection, execution and implementation of
activities. The departments differ, however, in their overseas presence. For DOS,
embassies are the centers of that presence and have a bilateral focus. Ambassadors and
their embassies are responsible for representing the U.S. in its relations with the host
governments of the countries to which they are accredited. Their perspectives come from
their knowledge of U.S. relations with the host government. For DoD, the most
important overseas units are the regional combatant commands, which have the areas of
responsibility indicated in Figure 3. State’s presence is country-specific; Defense’s
presence is through the COCOMs and has a regional focus. Because the two agencies are
involved in all phases of the Section 1206 projects, the program benefits from the
combination of bilateral and regional perspectives and resourcing. This combination is
one of the program’s strengths. As a result, DoD and DOS developed synergistic
regional projects, such as those in the Caribbean and the Gulf of Guinea, to reinforce the
effectiveness of Section 1206 country specific projects.

The COCOMs use their regional perspective and resources to design projects that address
regional problems by promoting regional cooperation. The program must nevertheless
carry out regional projects through bilateral relationships. Both the equipment and
training are delivered through the SAOs at the embassies. Each partner nation has its
own issues, interests, and procedures, and each partner nation will implement its part of
the project at its own pace. An example is the RMAC in the Gulf of Guinea. Criminals
exploit this ungoverned body of water for unlawful activities, from unlicensed fishing in
territorial waters, to oil ‘bunkering, 43 ’ to narcotics smuggling, to trafficking in persons,
and piracy. Those activities could be linked to international terrorist activities, which
thrive in ungoverned spaces.

In FY 2006, the Section 1206 program funded RMAC in Nigeria and Sao Tome and
Principe to provide off-the-shelf radar equipment and stations, communications
equipment, and training. EUCOM, the combatant command responsible for these two
African countries until the recent formation of AFRICOM, intended the RMAC to cover
the entire Gulf of Guinea. The project overcame unexpected obstacles, including delays
in Nigeria’s approval and implementation process and the reduction of non-Section 1206
funding. The experience of these two countries implementing a regional program at
different speeds illustrated the complexity of translating a well-conceived regional project
into individual bilateral projects custom-designed for each partner nation.




43
     Crude oil theft, or “bunkering,” is one of the key challenges faced by the Nigerian government.


                                                      44
                     Interagency Evaluation of the Section 1206 Global Train and Equip Program
                      August 31, 2009                              Report Number IE-2009-007


Chapter 7 Actions Taken
Summary
As previously reported, embassies and combatant commands had a two-week notice to
prepare and submit their FY 2006 proposals and the submission template required further
development. The combination of a short suspense and ad hoc guidance at the time may
have affected the quality of the proposals and execution. Since then, however, Congress
has refined various provisions of Section 1206 of the NDAA, and DoD, in concert with
the Joint Chiefs of Staff, and in coordination with the DOS, has refined and improved the
submission process.

Updates to Section 1206 of the NDAA
The Congress has updated the Act to include:

        A provision to include maritime security forces; and
        Obligation of funds into the next fiscal year.
Improvements to Submission Process:
In October 2008, DoD and DOS issued the interagency Section 1206 program guidance,
“Instructions for Proposal Development and Submission,” which prescribes a “template”
that standardizes guidance, suspense dates, and content. 44 Some noteworthy updates
include updated instructions concerning:
        How the proposed equipment and training will build partner capacity for one of
         the two purposes of the authority;
        How a project proposal addresses an actual counterterrorist threat; and
        How the proposal fulfills the requirement of a plan for sustainment:
         1. Through the effective life of the program; and
         2. That provides an assessment of partner nation ability to sustain training and
            equipment through skills, knowledge, and finances.

Timelines for project proposal and selection have been adjusted to allow for a release of
project approval and funding in separate tranches in the course of the fiscal year. This
refined approach allows for streamlined execution and allows the combatant commands
to submit urgent requests at any time in the fiscal year.




44
  DoD and DOS Section 1206 of the National Defense Authorization Act (NDAA) FY09 Proposal
Submission Template, October 2008.


                                               45
Interagency Evaluation of the Section 1206 Global Train and Equip Program
 August 31, 2009                              Report Number IE-2009-007




          This Page Intentionally Blank




                        46
         Interagency Evaluation of the Section 1206 Global Train and Equip Program
          August 31, 2009                              Report Number IE-2009-007



Appendix A Project Request




                                 47                                  APPENDIX A
Interagency Evaluation of the Section 1206 Global Train and Equip Program
 August 31, 2009                              Report Number IE-2009-007




                        48                                  APPENDIX A
        Interagency Evaluation of the Section 1206 Global Train and Equip Program
         August 31, 2009                              Report Number IE-2009-007



Appendix B Announcement of Interagency
Assessment




                                49                                  APPENDIX B
Interagency Evaluation of the Section 1206 Global Train and Equip Program
 August 31, 2009                              Report Number IE-2009-007




                        50                                  APPENDIX B
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007



Appendix C Scope and Methodology
Scope
The Director, Joint Staff, and the Principal Deputy Under Secretary of Defense (Policy)
requested this evaluation. The evaluation focused on the overall efficiency and
effectiveness for implementing the Section 1206 program. Specifically, the assessment
team reviewed Section 1206 program support to counterterrorist missions and stability
operations. The IG team also reviewed Section 1206 project selection, execution,
implementation, and results.

The universe of data collected was the approved projects for the Section 1206 program
authorized by the NDAA for FY 2006 as amended. However, the IG team collected
information for both FY 2006 and FY 2007 projects in the countries visited. The IG team
also visited Georgia, which had an approved FY 2007 project but did not have a project
authorized for FY 2006. Pakistan had an approved project for Fiscal Year 2006;
however, data collected on that project is included in a separate Inspector General report
addressing security assistance to Pakistan. The IG team did not visit Bahrain, where the
project was not sufficiently mature; Chad, where the embassy was under authorized
departure; or Yemen, where security conditions did not permit a visit by the IG team.
See Appendix I for information on the IG team’s country visits.

We prepared this report using the President’s Council on Integrity and Efficiency (PCIE)
“Quality Standards for Inspections,” January 2005.

Methodology
An interagency team representing the Offices of Inspectors General of DOS and DoD
carried out this assessment. From March 2008 through July 2009, the IG assessment
team:

      Reviewed public law, presidential directives, and agency policy governing
       funding and implementation of the Section 1206 program.
      Conducted interviews with U.S. government officials responsible for the program,
       including representatives of subordinate agencies within the DoD and DOS.
       Specifically, we conducted site visits and interviews at:
           1. Principal Deputy Under Secretary of Defense (Policy);
           2. Joint Staff, J5;
           3. Defense Security Cooperation Agency;
           4. CENTCOM;
           5. SOUTHCOM;
           6. SOCOM;
           7. EUCOM and AFRICOM;


                                            51                                  APPENDIX C
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007

           8. PACOM;
           9. DOS Office of Policy, Plans, and Analysis, Bureau of Political-Military
               Affairs;
           10. DOS Office of the Director of Foreign Assistance;
           11. DOS Assistant Legal Adviser for Legislation and Foreign Assistance; and
           12. DOS regional offices and country desks.
      Visited U.S. and Embassy personnel and facilities in partner nations, to include:
           1. Dominican Republic,
           2. Georgia,
           3. Indonesia,
           4. Lebanon,
           5. Nigeria,
           6. Panama,
           7. Sao Tome and Principe (Gabon), and
           8. Sri Lanka.
      Conducted exit briefs with senior officials of the Departments of Defense and
       State to obtain their comments on preliminary results.
Prior Coverage
The Government Accountability Office performed a review of the Section 1206 program
between September 2006 and February 2007 (GAO 07-416R). Its report determined that
coordination did not occur consistently between the COCOMs and embassy country
teams. The COCOMs and embassy country teams reported better coordination in the
formulation of FY 2007 Section 1206 project proposals. The DOS and DoD joint
assessment confirmed that coordination between the COCOMs and embassy country
teams had improved.
In February 2008, the Office of Global Affairs in the Office of the Secretary of Defense
requested analytical support from the Center for Strategic Studies of the CNA
Corporation (CNA). The CNA analysis included an assessment of the operational impact
of Section 1206 funded projects on selected countries. The CNA study team visited
Lebanon, Pakistan, Sao Tome and Principe, and Yemen. The CNA draft report did not
provide conclusions or recommendations.
In August 2008, the Congressional Research Service issued a report, The Department of
Defense Role in Foreign Assistance: Background, Major Issues, and Options for
Congress (Order Code RL34639). This report, in its appendix, reviewed the findings of
previous studies but did not make any independent judgments.
The Office of the Inspector General of the Department of Defense issued a classified
report, “Assessment of DOD-Managed Programs in Support of the Government of
Pakistan,” report number SPO-2009-004 (U), dated May 20, 2009.


                                           52                                  APPENDIX C
         Interagency Evaluation of the Section 1206 Global Train and Equip Program
          August 31, 2009                              Report Number IE-2009-007


Appendix D Interim Report




                                 53                                  APPENDIX D
Interagency Evaluation of the Section 1206 Global Train and Equip Program
 August 31, 2009                              Report Number IE-2009-007




                        54                                  APPENDIX D
Interagency Evaluation of the Section 1206 Global Train and Equip Program
 August 31, 2009                              Report Number IE-2009-007




                        55                                  APPENDIX D
Interagency Evaluation of the Section 1206 Global Train and Equip Program
 August 31, 2009                              Report Number IE-2009-007




                        56                                  APPENDIX D
                       Interagency Evaluation of the Section 1206 Global Train and Equip Program
                        August 31, 2009                              Report Number IE-2009-007



Appendix E Security Assistance Organizations
and Security Assistance Officers
The SAOs are ordinarily located within a U.S. embassy. SAO is a generic term. DoD
and DOS use this term for all organizations, regardless of actual name or size, that are
located within overseas U.S. missions and have the responsibility of carrying out security
assistance functions under the Foreign Assistance Act and the Arms Export Control Act.
These functions include FMF, IMET, and EDA.

The formal, official names of these organizational units vary from embassy to embassy.
In some 60 European, East Asian, African, and other countries, the name is Office of
Defense Cooperation (ODC). In the Dominican Republic, the name is the U.S. Military
Assistance Advisory Group. In all, there are twenty titles for these organizations. In
most cases, diplomatic agreements between the USG and the host government established
the titles. Local political sensitivities can influence the designation.

DoD applies the term “security assistance officer” (also SAO) to its personnel who are
assigned to security assistance organizations. This report uses the term “SAO” to refer
not only to the organization but also to the personnel who perform the principal functions
of these offices. Embassies often have Defense Attaches as well as SAO’s.

The SAO acts as the primary interface with the host government on security assistance
issues. The SAO is under the direction and supervision of the U.S. ambassador or other
chief of mission. The SAO, by DoD policy (DoDD 5132.3), is under the command and
supervision of the area combatant commander in matters that are not the responsibilities
or functions of the ambassador. This includes promotion and execution of the combatant
commander’s theater security cooperation strategy for that country. On security and
other issues, the SAO acts as an advocate for host government concerns and interests to
the USG. The SAO, however, has the responsibility to advance U.S. foreign policy goals
under the ambassador. The SAO is the link that ensures compatibility of DoD and DOS
policies. The SAO plays a key role in the development, selection, and implementation of
Section 1206 projects. 45




45
  The Management of Security Assistance, (27th ed., Wright Patterson Air Force Base: Defense Institute of
Security Assistance Management, Oct. 2007) pp. 4-1—4-3.


                                                   57                                      APPENDIX E
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007


Appendix F Sanctions, Human Rights, and
Section 1206
Limitations on Foreign Security Assistance
United States’ laws restricting foreign security assistance apply to Section 1206 projects.
These laws affect the proposal, selection, execution, and implementation phases of the
projects. Ordinarily, ambassadors and country team members are aware of the laws and
restrictions that apply to U.S. foreign security assistance for their respective countries.
Likewise, COCOM officials should know these laws as they apply to the countries in
their areas of responsibility. As required, relevant embassy and COCOM personnel
should consider applicable laws and restrictions related to human rights and sanctions
before submitting Section 1206 proposals.

With regard to human rights, the State Department’s Bureau of Democracy, Human
Rights, and Labor (State/DRL) monitors the human rights records of all foreign countries.
Each year, State/DRL publishes a 5,000-page report on human rights conditions for over
190 countries. Consequently, the DOS can readily determine whether a particular
country is eligible for security assistance. The IG team concluded that the State/DRL
information resource facilitates the human rights reviews for Section 1206 projects.

For Section 1206 projects, legal restrictions may apply to partner nations and affect the
review and implementation processes. For example, Thailand’s military coup in 2006
prevented implementation of the approved project before the end items could be
delivered. Section 1206 funded CT projects in Sri Lanka in FY 2006 and FY 2007. In
FY 2008, responding to concerns about Sri Lanka’s human rights record, Congress
imposed specific restrictions on Sri Lanka designed to encourage the island nation to
improve its human rights record and bring human rights abusers to justice. These
restrictions were included in the FY 2008 Department of State, Foreign Operations, and
Related Programs Appropriations Act. 46 As a result of these restrictions, Sri Lanka is
ineligible for Section 1206 funding, unless the Secretary of State certifies to Congress
that certain conditions relating to human rights have been met. However, the law allows
the U.S. to provide technology or equipment for the limited purposes of maritime and air
surveillance and communications. In addition, a separate provision of law restricts
assistance to the government of a country where there are governmental armed groups
that recruit or use child soldiers. Because of the Sri Lankan government’s support for
certain militia groups that used child soldiers, this restriction was also considered
applicable. 47

Section 1206 has provided ambassadors with an additional diplomatic tool to confront
and remedy human rights issues. In the affected partner nations, leaders are apt to be
more cooperative in addressing human rights issues and work to resolve problems when

46
     Section 699G, Division J, Consolidated Appropriations Act, 2008, (Pub. L. 109-161) (2007).
47
     Ibid.



                                                     58                                      APPENDIX F
                          Interagency Evaluation of the Section 1206 Global Train and Equip Program
                           August 31, 2009                              Report Number IE-2009-007

there is a potential for security assistance. One ambassador said, “Section 1206 funding
is my linchpin to ongoing negotiations for resolution of human rights issues.” 48

However, in Indonesia the IG team heard complaints from embassy and partner nation
officials, about the requirements about the vetting of military personnel proposed for
U.S.-sponsored training. The Leahy amendment prohibits the U.S. government from
providing military or other assistance to foreign security forces units if the State
Department has credible evidence that such unit has committed gross violations of
human rights. 49 The prohibition does not apply if the Secretary of State determines that
the government of that country is taking effective measures to bring the responsible
members of the security forces unit to justice. Countries may remain eligible for
assistance; while, certain units may not benefit from that assistance. Indonesian officials
claimed that prospective trainees were required to complete extensive paperwork and that
the vetting took as long as two months to complete. Although U.S. procedures require
embassies to do “due diligence” in vetting proposed military trainees, it is reported that
the State/DRL and regional bureaus often complete the Washington vetting in less than
ten days. Resolving these issues extends beyond the Section 1206 program and is beyond
the scope of this evaluation.

How Limitations Legally Apply to the Section 1206 Program
The Section 1206 legislation establishes the following prohibitions and limitations:

          Prohibitions: “ASSISTANCE OTHERWISE PROHIBITED BY LAW - The Secretary of
           Defense may not use the authority in subsection (a) [to provide assistance under
           Section 1206] to provide any type of assistance described in subsection (b) that is
           otherwise prohibited by any provision of the law.” 50
           This provision is a prohibition on the types of assistance that Section 1206
           authorizes. Even though the country itself is eligible for development assistance
           or security assistance, DoD may not be able to provide certain types of security
           assistance to that country.
          Limitations: “LIMITATION ON ELIGIBLE COUNTRIES - The Secretary of Defense
           may not use the authority in subsection (a) to provide assistance to any foreign




48
     See Appendix F for an explanation of these provisions.
49
  Emphasis added. The Leahy Amendment has been included in appropriation bills since 1996 and is now
incorporated into the Foreign Assistance Act. Foreign Assistance Act of 1961, sec.620J, as added by the
Consolidated Appropriations Act, 2008, Pub. L. 110-161, Section 651(2007), codified at 22 U.S.C. Section
2378d (2008).
50
  National Defense Authorization Act for Fiscal Year 2006, Pub. L. 109-163, sec. 1206(c)(2), Section
1206(c)(3) (2006), as amended by John Warner National Defense Authorization Act for Fiscal Year 2007,
Section 1206(a)(2)(B)(ii)(2006), codified at 22 U.S.C Section 2378d (2007).


                                                      59                                  APPENDIX F
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007

           country that is otherwise prohibited from receiving such type of assistance under
           any other provision of law.” 51
           This provision is a limitation on the eligibility of countries, as determined by
           other laws. It means that any country ineligible for other similar types of security
           assistance, such as FMF and IMET, is ineligible for Section 1206 projects.

These two provisions make previously enacted prohibitions and limitations on other
security assistance programs and other forms of foreign assistance applicable to the
Section 1206 program. The prohibitions and limitations are found in the Foreign
Assistance Act, the Arms Export Control Act, laws that stand alone outside any larger
statutes, and restrictions in annual appropriations acts that apply to foreign assistance
funded by the act. 52

Examples of Legal Restrictions
Restrictions on foreign assistance change over time. Countries are subject to different
restrictions based on the facts as events occur and conditions change. Therefore, the
DOS does not have an enduring, comprehensive checklist because of the dynamic nature
of the geo-political world. Some examples, however, indicate the nature and range of
those restrictions.

An example of a restriction on types of assistance is the prohibition of military assistance,
defense export licenses, and the sale or transfer of “cluster munitions or cluster munitions
technology” unless conditions on the quality and use are met. 53

Other examples of the limitations imposed on eligible countries are:

          the prohibition against assistance to any government which engages in a
           consistent pattern of gross violations of international recognized human rights,
           subject to certain exceptions; 54
          the prohibition against assistance to countries in which the duly elected head of
           government has been deposed by a military coup or decree, with exceptions; 55

51
  National Defense Authorization Act for Fiscal Year 2006, Pub. L. 109-163, sec. 1206(c)(2), Section
1206(c)(3) (2006), as amended by John Warner National Defense Authorization Act for Fiscal Year 2007,
sec. 1206(a)(2)(B)(ii)(2006), codified at 22 U.S.C Section 2378d (2007).
52
  It is possible that some statutes restricting the eligibility of countries or certain types of assistance would
apply to the Section 1206 program on their own terms and would not need the two quoted provisions from
Section 1206 to apply to the program. Thus, some provisions of law restrict the provision of assistance
“under any Act” and would restrict 1206 assistance even without the provisions cited above.
53
  Department of State, Foreign Operations, and Related Programs Appropriations Act, 2008 (Div. J, P.L.
110-161), sec. 646.
54
     Foreign Assistance Act of 1961, as amended, sec. 502B codified at 22 USC Section 2304(a)(2).
55
  Department of State, Foreign Operations, and Related Programs Appropriations Act, 2008 (Div. J, P.L.
110-161), sec. 608.



                                                       60                                          APPENDIX F
                          Interagency Evaluation of the Section 1206 Global Train and Equip Program
                           August 31, 2009                              Report Number IE-2009-007

            the restrictions against assistance to countries that have military or other forces
             that recruit or use child soldiers; 56
            the prohibition against assistance to countries that have failed to take necessary
             and significant steps to apprehend and transfer persons who have been indicted
             for war crimes to the International Criminal Tribunal for the former Yugoslavia;57
            the prohibitions against assistance to countries that have expropriated the property
             of United States persons without compensation; 58 and
            the restrictions on assistance to countries in default on payments of loans by the
             United States. 59

Restrictions on assistance to countries that directly or indirectly support terrorism
include:

            the prohibition on assistance to governments supporting international terrorism; 60
            prohibitions against assistance to countries that aid terrorist states; 61 and
            the prohibition against bilateral assistance to countries that grant “sanctuary from
             prosecution to any individual or group which has committed an act of
             international terrorism or otherwise supports international terrorism.” 62

In addition, there are trafficking in persons (TIP) considerations. The TIP laws stipulate
that the President may make determinations that will result in the withholding of
“nonhumanitarian, nontrade-related assistance.” 63

For Sri Lanka, there are country-specific limitations which prohibit the use of the FMF
Program, defense export licenses, and the transfer or sale of military equipment or
technology. These limitations remain in effect unless the SecState certifies to the
Congress that the government of Sri Lanka is:

            suspending and bringing to justice any members of the military who are alleged to
             have committed gross violations of human rights, including complicity in the
             recruitment of child soldiers;

56
     Ibid.
57
     Ibid.
58
     22 U.S.C. Section 2370(e)(2007) and 22 U.S.C. Section 2370a (2007).
59
  Department of State, Foreign Operations, and Related Programs Appropriations Act, 2008 (Div. J, P.L.
110-161) sec. 612.
60
     22 U.S.C. Section 2371(2007).
61
     Ibid.
62
  Department of State, Foreign Operations, and Related Programs Appropriations Act, 2008 (Div. J, P.L.
110-161), sec. 626.
63
     22 U.S.C. Section 7107 (2007).



                                                    61                                    APPENDIX F
                      Interagency Evaluation of the Section 1206 Global Train and Equip Program
                       August 31, 2009                              Report Number IE-2009-007

        providing access to humanitarian organizations and journalists; and
        agreeing to a field presence of the Office of the United Nations High
         Commissioner for Human Rights.

Note: This provision exempts “technology and equipment made available for the limited
purposes of maritime and air surveillance and communications.” 64




64
  Department of State, Foreign Operations, and Related Programs Appropriations Act, 2008 (Div. J, P.L.
110-161), sec. 699G.




                                                  62                                      APPENDIX F
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007


Appendix G FMF, IMET, and Section 1206
Funds, FY 2003-2007
As demonstrated in Table 8, in all but one case, the partner nation received more security
assistance in Section 1206 funds in two years than it received in FMF or IMET funds
over five years. The only exception is Georgia. In five cases, Indonesia, Lebanon,
Nigeria, Sao Tome and Principe, and Sri Lanka, Section 1206 funds exceeded FMF and
IMET combined over the preceding five years.
        Table 8. Survey of Country Military Assistance FY 2003 through
        FY 2007 ($000)
                 Country             Fiscal Year     FMF        IMET Section 1206
         Dominican Republic             2003              300     570            N/A
                                        2004            2,000     973            N/A
                                        2005              992 1,194              N/A
                                        2006              941 1,328           7,200
                                        2007              725 1,048              500
         Georgia                        2003            6,900 1,184              N/A
                                        2004           12,000 1,228              N/A
                                        2005           11,904 1,413              N/A
                                        2006           11,880 1,275                0
                                        2007            9,700 1,160           6,500
         Indonesia                      2003                0     276            N/A
                                        2004                0     599            N/A
                                        2005                0     728            N/A
                                        2006              990     938        18,400
                                        2007            6,175     101        28,700
         Lebanon                        2003                0     700            N/A
                                        2004                0     700            N/A
                                        2005           25,950     809            N/A
                                        2006            3,713     752        10,500
                                        2007         224,800      905        30,600
         Nigeria                        2003                0      96            N/A
                                        2004                0       0            N/A
                                        2005                0       0            N/A
                                        2006              990     792         6,500
                                        2007            1,000     696            900
         Panama                         2003              990     209            N/A
                                        2004            2,000     558            N/A
                                        2005              992     955            N/A
                                        2006              990     894         7,200
                                        2007              775     677              0
         Sao Tome and Principe          2003              500     180            N/A
                                        2004                0     188            N/A
                                        2005                0     194            N/A
                                        2006                0     289         3,400
                                        2007                0     120            400
         Sri Lanka                      2003                0     307            N/A
                                        2004            2,495     553            N/A
                                        2005              496     461            N/A
                                        2006              990     529        10,800
                                        2007              990     483         7,400
        Source: Department of State, Annual Human Rights Reports, FYs 2003-2007.




                                             63                                  APPENDIX G
                      Interagency Evaluation of the Section 1206 Global Train and Equip Program
                       August 31, 2009                              Report Number IE-2009-007



Appendix H Lebanon Case Study
Introduction
This study examines the issue of tracking the status of Section 1206 projects. The IG
team selected the approved projects for Lebanon for FYs 2006 and 2007 to analyze the
information flow between DSCA and the SAO. Background information and
management comments were solicited from DSCA and the SAO. Although the scope of
this study is confined to the Lebanon cases, the IG team observed that the systemic
indicators may be applicable to the overall management of the Section 1206 program.

Lebanon—FY 2006 and FY 2007 Case Files
Tables 9 and 10 summarize the case files for Lebanon for FYs 2006 and 2007.

In May 2008, DSCA provided a status report on Section 1206 projects to the Offices of
the Under Secretary of Defense for Policy and the Joint Staff J-5. Derived from that
status report, these tables list pertinent details for each of the cases. The DSCA
information is printed in black font. (Note: The figures, below the lined-out figures, in
green in the second column, “Case Value,” are DSCA-adjusted case values.)

At the request of the IG team, the SAO in Lebanon examined this report and commented
on DSCA’s representation of the case values and current status of each case. The entries
in blue represent information provided by the SAO, which was updated in March 2009.

Table 9. Deliveries to Lebanon in FY 2006--Program Value $10,489,390)
(Original data as of August 2008 and updated by SAO as of March 2009)

                           Amount
                                        Model/               Final                 Current
  Case ID   Case Value      Not
                                      Description          Shipment                Status
                          Obligated
                                      Vehicle                         90% shipped. Did not receive the
 B4-B-AAC    $3,360,000      $0       spares for 5-         Nov-08    list of parts in contract to
                                      ton trucks                      compare with parts delivered.
                                                                      94% shipped. Did not receive
             $2,304,960               M113 APC
 B4-B-AAD                 $996,900                          Aug-08    the list of parts in contract to
             $1,308,160               spare parts
                                                                      compare with parts delivered.
                                                                      Delivered. Did not receive the list
                                      CUCV spare
 B4-B-AAE    $2,363,200      $0                            Shipped    of parts in contract to compare
                                      parts
                                                                      with parts delivered.
                                                                      Delivered. Did not receive the list
             $1,129,787               UH-1H
 B4-B-AAF                 $725,000                         Shipped    of parts on contract to compare
              $404,787                spare parts
                                                                      with parts delivered.
                                                                      Delivered. Did not receive the
             $1,331,443               UH-1H
 B4-B-ABE                 $337,000                         Shipped    list of parts in contract to
              $958,443                spare parts
                                                                      compare with parts delivered.
Source: Lebanon Security Assistance Office
Acronyms:       APC = Armored Personnel Carrier
                CUCV = Commercial Utility Command Vehicle
                UH-1H = Bell Huey Helicopter



                                                      64                              APPENDIX H
                      Interagency Evaluation of the Section 1206 Global Train and Equip Program
                       August 31, 2009                              Report Number IE-2009-007

Inspection of this data highlights information disparity between DSCA and the SAO.
The SAO’s recurring comment is that they did not receive the list of parts on contract to
compare with parts delivered.

Table 10. Deliveries to Lebanon in FY 2007--Program Value $30,397,343
(Original data as of August 2008 and updated by SAO as of March 2009)

                              Amount
                                                  Model/            Final
  Case ID     Case Value       Not                                                          Current Status
                                                Description       Shipment
                             Obligated
                                                                                 100% shipped. Complete
 B5-B-AAC     $6,939,107         $0          Ammunition            Shipped
                                                                                 shipment received
                                             EDA                                 Transportation arranged.
  B5-B-IAD    $1,029,879         $0                                   NA
                                             Transportation                      Completed.
                                                                                 62% shipped. Total cost of
                                             UH-1H spare
 B5-B-AAE     $5,500,000    $4,123,000                              May-08       items received, in-country,
                                             parts
                                                                                 was $598,303.
                                                                                 50% shipped. Did not receive
                                             M4 and M16
 B5-B-AAH      $500,000          $0                                 May-08       the list of parts on contract to
                                             spares
                                                                                 compare with parts delivered.
                                                                                 Survey complete,
                                             Training program
 B5-B-OAF      $399,000          $0                                   NA         recommendations integrated
                                             site survey
                                                                                 into LAF modernization plan
                                                                                 90% shipped. Did not receive
                                             Wheeled vehicle
  B5-B-AAI    $4,440,000         $0                                 Oct-09       the list of parts on contract to
                                             spares
                                                                                 compare with parts delivered.
                                                                                 In procurement. LAF
                                             Organizational
                                                                                 received 1,900 OTVs and
                                             Clothing and
 B5-B-AAJ     $3,070,000         $0                                 Aug-09       3,800 plates. Do not have the
                                             Individual
                                                                                 quantity that was put on
                                             Equipment
                                                                                 contract.
                                             LOS LAN
                                                                                 In procurement. Received in-
 B5-B-ACK      $204,473          $0          communications         May-08
                                                                                 country.
                                             equipment
                                             Secure comm.                        Secure communications
 B5-B-ADC     $6,427,884         $0          equipment;             Dec-08       equipment delivered. No
                                             NVGs                                ESD for the NVGs.
                                                                                 In procurement. LAF
                                                                                 received 1,885 OTVs and
 B5-B-ADD     $1,887,000         $0          SAPI body armor        Sep-08       3770 plates. Do not have the
                                                                                 quantity that was put on
                                                                                 contract.
Source: Lebanon Security Assistance Office
Acronyms:       EDA = Excess Defense Articles         LOS LAN = Line of the Sight Local Area Network
                 M4, M16 = Types of Rifles            NVG = Night Vision Goggles
                 UH-1H = Bell Huey Helicopter         ESD = Estimated Shipping Date
                 OTV = Outer Tactical Vest            SAPI = Small Arms Protective Insert




                                                    65                                          APPENDIX H
                     Interagency Evaluation of the Section 1206 Global Train and Equip Program
                      August 31, 2009                              Report Number IE-2009-007


Specific Case—UH-1H Spare Parts (Case ID: B5-B-AAE)
Examination of this case suggests an observation on the transparency of case values with
regard to the timely obligation of O&M funds before they expire at the end of the FY.

According to the Section 1206 LOA for Case B5-B-AAE, the original value of the case
was $5.5 million. 65 DSCA’s records indicated that 62 percent of the helicopter parts
authorized in the case was shipped to Lebanon.

However, the SAO’s records listed the value of parts received in country as of August
2008 was $598,000. This equates to 11 percent of the original case value of $5.5 million.
According to Table 10, DSCA reported that $4,123,000 was not obligated, a condition
that represents a lost opportunity to provide the vetted and approved assistance.
Therefore, based on the information available, the adjusted case value was $1,377,000.
The IG team concluded that the difference between the adjusted case value and the value
of the articles shipped to Lebanon, or $779,000, was the amount of DSCA surcharge and
DTS shipping fees. Because DSCA did not provide the parts list with values and
shipping cost, the SAO could not audit and validate inventories and costs. In essence, it
cost $779,000 in fees to deliver $598,000 of UH-IH spare parts to Lebanon. This
disproportionate ratio of administrative and transportation fees compared to the actual
value of the equipment delivered implies a lack of cost management effectiveness or
worse.




65
 Letter of Offer and Acceptance, Case number B5-B-AAE, Lebanon, P.L. 109-364, Section 1206 (Non-
FMS). Source USASAC, Ft. Belvoir, VA 22060.




                                               66                                    APPENDIX H
                      Interagency Evaluation of the Section 1206 Global Train and Equip Program
                       August 31, 2009                              Report Number IE-2009-007


Appendix I Country Reports
Introduction to Country Reports
In the spring and summer of 2008, the evaluation team visited seven partner nations on
the Section 1206 FY 2006 list and one nation on the FY 2007 list. The projects in these
countries were considered sufficiently mature so as to permit an assessment of their
respective programs. In preparation for these visits, the IG team met with DoD program
managers and points of contact at the Headquarters for Southern Command, Central
Command, Pacific Command, European Command, African Command, and Special
Operations Command. Moreover, the IG team met with officials at the DOS’s regional
and functional bureaus, including the Bureau of Political-Military Affairs, the Office of
the Director of Foreign Assistance, and the Office of the Legal Adviser.

The IG team divided into two groups. One visited Dominican Republic, Indonesia,
Panama, and Sri Lanka. The second group visited Georgia, Lebanon, Nigeria, and Sao
Tome and Principe. The IG team did not visit Bahrain, Chad, Yemen, or Pakistan. For
Bahrain, the equipment, which had originally been approved for Thailand, had not yet
been delivered. Chad and Yemen were considered safety and security risks. Another
DoD team reviewed and reported on Pakistan’s Section 1206 program―one of several
DoD security assistance programs in Pakistan. 66




66
  The Office of the Inspector General of the Department of Defense issued a classified report,
“Assessment of DOD Managed Programs in Support of the Government of Pakistan,” report number
SPO-2009-004 (U), dated May 20, 2009.



                                                67                                     APPENDIX I
                       Interagency Evaluation of the Section 1206 Global Train and Equip Program
                        August 31, 2009                              Report Number IE-2009-007


Dominican Republic
Section 1206 supplied high speed intercept boats and
support equipment, communications equipment, and                            Country             Amount
training to the Dominican Republic. The equipment
                                                                     Dominican Republic       $ 7.2 million
and training were used to help build the nation’s
ability to control its borders and counter terrorism.

What the Security Concerns Are
For the Dominican Republic, the security challenges are ungoverned maritime areas
surrounding the republic and the insecure border with Haiti. Because their maritime
areas in the Gulf of Mexico and the Caribbean are adjacent to the United States, control
of these areas is important to the Dominican government and to the U.S. People move
freely across the border from Haiti into the Dominican Republic. The Government has
waived visa requirements for 33 different countries, of which 13 have links to terrorist
organizations or activities. Cuba creates a security risk because weekly flights from
Tehran to Havana could link to Cuban flights into the Dominican Republic. 67

What Capacity Was Needed
To monitor and patrol their coastlines, the
Dominican military used lookout stations at 60
shore locations to monitor and patrol coastlines.
These lookout stations could not “see”
everything; thus, terrorist activity was more
likely to go undetected. The military had only
two civilian surveillance radars to monitor the
air space. According to the Dominican Chief of
Navy Operations, the military needs
surveillance airplanes that could track maritime
vessels and communicate data to intercept boats.
The Navy’s Chief said that airborne “tracking
and vectoring are the tactical pieces needed if
the navy is to monitor, control, and govern their
boundaries and territories more effectively.”                       Dominican Republic - Harris Radio
                                                                        Communication Station
                                                                       (Photo by IG Assessment Team)




67
  For a discussion of the transnational terrorist threat in the Dominican Republic, see the U.S. Department
of State’s Country Reports on Terrorism 2007, p. 158 (2008), an annual publication mandated by law. See
also U.S. Department of State, “Background Note: Dominican Republic,” (June 2008).


                                                    68                                        APPENDIX I
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007


How the Section 1206 Project Builds Partner Nation Capacity to
Counter Terrorism or Participate in or Support Stability Operations
Section 1206 funded equipment and training supports the objectives of the EF program.
The EF program is a maritime security assistance program that enhances the capability of
Central American and Caribbean partner nations to patrol their sovereign waters and
share information. The EF program provided interceptor boats, operation and
maintenance training, command and control systems, and a common operating picture to
improve maritime domain awareness and interoperability. This key program shares U.S.
information on illicit traffickers and builds or improves partner nation’s ability to detect
and interdict illicit trafficking along their shores.

The Dominican Republic is developing these special units to fight terrorism:

      Counter-Terrorism Unit,
      Frontier Corps,
      Airport Security Unit,
      Customs and Border Unit, and
      Metropolitan Police Force Unit.

What the IG Team Did
The IG team met with the Ambassador, Deputy Chief of Mission, and members of the
embassy staff at the U.S. embassy, including the Military Assistance and Advisory
Group. The IG team also:

      met with the Chief of Staff of the Navy and key members of his senior staff;
      toured a Section 1206-equipped regional center;
      received a briefing from the Director of Navy Operations;
      conducted a site visit to one operational location—27 de Febrero Naval Base;
      interviewed an intercept boat commander; and
      observed a demonstration of Section 1206 equipment.

What Was Provided Under Section 1206 in FY 2006
Section 1206 provided $7.2 million in equipment and training during FY 2006, which
accounts for almost half of the U.S. security assistance grants for the FY. The equipment
included:

      4 NOR-TECH intercept boats with trailers,
      4 heavy-duty diesel trucks,



                                            69                                   APPENDIX I
                       Interagency Evaluation of the Section 1206 Global Train and Equip Program
                        August 31, 2009                              Report Number IE-2009-007

      4 boat lifts,
      136 Harris High Frequency (HF)/Very High Frequency (VHF) radios (4 installed
       on boats),
      12 transportable base stations,
      90 handheld radios, and
      15 manpacks (6 shipboard and 9 standard base stations.)

How the Projects Addressed this Partner Nation’s Capability Gaps
The interceptor boats and communications equipment increased their ability to detect and
intercept unfriendly vessels. The senior leaders of the Dominican Navy stated that the
interceptor boats are very useful in counterterrorist operations.

What the Obstacles Were
There were three delay issues. The most significant obstacle was the delay in delivering
the transport trucks for the boats. Four interceptor boats were delivered in FY 2006.
Each boat weighed 18,000 pounds, and the military needed trucks to transport the boats
to the docks and maintenance areas. Acquisition contracts for the trucks were awarded
and paid with FY 2006 funds. At the time of the IG team’s site visit, the trucks had not
been delivered. The Dominican military informed the IG team that they had developed a
work-around with existing vehicles. Since the IG team’s visit, we were informed that the
trucks were delivered in August 2008.

Another delay involved the construction of the lifts for boat storage and maintenance.
Originally, the contract called for the purchase of two floating jet docks, but the navy
requested boat lifts to facilitate more efficient maintenance on the hulls. Subsequently,
the contractor procured four lifts for the price of two jet docks. Construction of the lifts
was delayed because it was difficult to find a contractor to design and install pylons for
the lifts. In May 2008, the boat contractor went to the Dominican Republic to help
negotiate the manufacture and installation of the pylons for the lifts. This problem has
been solved.

The third obstacle involved integrating communications on the interceptor boats.
Interoperability of communications systems remains unresolved. The boats are equipped
with a maritime HF radio, a crew intercom system, and the Harris VHF radio. Naval
officers report difficulties in making these three systems work together. The current
radio configuration requires two headsets to communicate. Naval officers would prefer
to have one integrated communication headset. When they are making an intercept with
the boat operating at full speed and using intercept vectors from a regional control center,
the two headset approach complicates coordination among the crews.




                                               70                                   APPENDIX I
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007


What the Status Was
In FY 2007, the Dominicans installed 12 transportable plus 9 standard base stations. The
transportable stations are movable with limited required setup, and the Dominican
technicians are trained to accomplish the setup tasks. Dominican personnel had
completed the training for operation and maintenance of the boats and radios provided by
Section 1206. When the IG team visited the Dominican Republic, all equipment on-site
was less than one year old. The Dominican military was still learning how to employ and
leverage their new capability.

What the Results of the Project’s Implementation Were
Improvements Generated by Section 1206

The Section 1206 interceptor boats and communication equipment increased the
Dominican Republic’s ability to intercept unfriendly vessels. The senior leaders of the
Dominican navy stated that the interceptor boats are very useful in counterterrorist
activities.

Success in Building the Operational Capability

The U.S. Navy supports the Consistent Network Information System (CNIS) and
approved Dominican Republic’s participation in the system. CNIS gave the Dominican
Republic the ability to monitor suspicious activities, but the military had no intercept
capability to take action with that information. Therefore, SOUTHCOM prioritized the
intercept boat project as the best opportunity to provide an emerging capability for
counterterrorism.

Commitment to Sustaining Capability

The Dominican Republic has a limited national budget and still requires U.S. support to
maintain the boats and to supply fuel for operations. Dominican navy officials reported
that they had too few personnel to operate their boats on a 24-hour basis, but they are
working to increase personnel strength to solve this problem.

Use of the Capability

The Dominican navy has used the capability to intercept criminals. The navy intercepted
one boat that carried 250 kilos of cocaine and apprehended two smugglers. Another
intercept resulted in the apprehension of illegal Cuban nationals. Without the improved
capability to monitor and control territorial waters, transnational terrorists could take
advantage of the vulnerabilities exploited by these criminals.




                                           71                                   APPENDIX I
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007

Partner Nation’s Perceptions of the Program

The Dominican military officials were not satisfied with their level of involvement on the
selection of Section 1206 projects. According to naval leaders, the most urgent need was
not boats but the equipment to generate accurate and timely intelligence information to
perform intercepts. Dominican representatives stated that before the U.S. makes big
investments through the EF program, the U.S. should conduct more bilateral
consultations to collaborate on decisions for future equipment, supplies, and training.
However, they understood SOUTHCOM’s EF regional concept and appreciated the
training and new equipment. They were especially pleased with the command, control,
communications, and intelligence equipment consisting of the Harris base stations and
data links. SOUTHCOM officials stated that EF is a maritime security initiative and
therefore cannot be used to purchase intelligence equipment.




                                           72                                   APPENDIX I
                        Interagency Evaluation of the Section 1206 Global Train and Equip Program
                         August 31, 2009                              Report Number IE-2009-007


Georgia
The Section 1206 program supplied training and                 Country         Amount
communications equipment to Georgia. This funding
facilitated the establishment of a new command                 Georgia       $ 6.5 million
organized to improve command and control of the
combat brigades. The project increased the Georgian military’s capacity to conduct
stability operations. 68

What the Security Concerns Are
Since declaring its independence from the Soviet Union in 1991, Georgia has sought to
establish closer diplomatic and military ties with the U.S. and the international
community—to include aspirations to join the North Atlantic Treaty Organization
(NATO).

However, the Georgians acknowledged to the IG team their inability to engage in multi-
level command and control processes, which limits their capacity to conduct combined
military operations with the U.S. Armed Forces. The Georgians want to participate with
U.S. forces in stability operations and improve
their counterterrorist capabilities. 69

What Capacity Was Needed
According to military officials interviewed,
Georgia needed training in military tactics,
techniques, and procedures and procurement
of a reliable, secure, tactical communications
system.

What the IG Team Did
                                                                      Georgia - Civil Defense Map
The IG team met with the Deputy Chief of
                                                                      (Photo by IG Assessment Team)
Mission at the U.S. Embassy-Tbilisi and the
Georgia Ministry of Defense staff. The IG team also:

        observed a military demonstration at the Combat Engineer base in Gori,
        visited the Saguramo Range east of Tbilisi; and
        interviewed communication soldiers about Section 1206-funded equipment.

68
  Unlike the counterterrorist-focused projects in the other seven countries visited, the Georgian project was
designed to build the partner nation’s capacity to participate with the United States in stability or military
operations. The Georgia project was funded in FY 2007.
69
  For a fuller discussion of security concerns and Georgia’s participation in stability operations, see the
U.S. Department of State’s Country Reports on Terrorism, an annual publication mandated by law. U.S.
Department of State, Country Reports on Terrorism 2007, p. 68 (2008). See also U.S. Department of State,
“Background Note: Georgia” (September 2008).


                                                     73                                         APPENDIX I
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

What Was Provided Under Section 1206 in FY 2007
Section 1206 program provided $6.5 million to train and equip select military units—
Communications, Special Forces, and Engineering. The aid package included:

      Harris Falcon II HF multi-band communication systems complete with
       accessories, spare units, and vendor training. The Falcon II is a complete tactical
       system that processes voice, data, and position information. This common-
       platform, software-based system meets the increasing need for integrated HF,
       VHF, and Ultra High Frequency (UHF) communications system and provides
       interconnectivity among land-based and wireless communications media. The
       suites include data terminals, base stations, and vehicular and handheld secure
       personal radios. The Harris Company provided radio installation support and
       trained Georgian communication specialists to operate the system at a five-week
       course held at the company’s Technical Training Center in Rochester, New York.
      Multiple Integrated Laser Engagement Systems (MILES) and MILES Individual
       Weapons System (IWS). MILES is a training system that provides a realistic
       battlefield environment for soldiers involved in training exercises. MILES
       provides tactical engagement simulation for direct fire force-on-force training
       using eye safe laser “bullets.” Each individual and vehicle in the training exercise
       has a detection system to sense hits and perform casualty assessment. Laser
       transmitters are attached to each individual and vehicle weapon system and
       accurately replicate actual ranges and lethality of the specific weapon systems.
       MILES training has been proven to improve military capability dramatically.
      Mobile Training Teams (MTTs) for Land Forces Engineer Battalion.
       Approximately 18 American contractor trainers provided eight weeks of land
       forces training to Georgia’s engineer battalion from February to April 2008.

How the Projects Addressed this Partner Nation’s Capability Gaps
EUCOM submitted this FY 2007 train and equip package to help Georgia build the
capacity for stability and counterterrorist operations. The Harris radios and training, the
MILES system, and MTTs helped Georgian’s improve their combat readiness and
fighting effectiveness.

What the Obstacles Were
There were delays in training and equipment delivery.

What the Status Was
At the time of the IG team’s visit, MTTs had provided defense advisory training to the
combat engineer battalion in Gori, and the Georgian military had received partial delivery
of the Harris radio communication suites. The Georgians were awaiting the delivery of
additional radios and training for the Georgian Special Forces battalion.




                                             74                                  APPENDIX I
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

What the Results of the Project’s Implementation Were
Improvements Generated by Section 1206

The communications equipment and training provided made it possible for the Georgian
military to participate with U.S. troops in stability and military operations. Georgia was
able to deploy about 850 soldiers to Iraq to support Coalition operations.

Success in Building Operational Capability

The Georgians partnered with a contractor to institute a train-the-trainer program to
qualify indigenous instructors to teach operation of the Harris radio systems. They have
committed national funds to buy additional Harris radios as standard equipment for their
land forces.

Commitment to Sustaining Capability

To ensure that Georgian forces are trained to U.S. and NATO standards, the Georgian
government has committed $6 million in national funds to purchase weapons and
ammunition for its Special Forces Battalion.

Partner Nation’s Use of the Capability

Georgians are using Section 1206-funded Harris radios to maintain continuous
communication with their battalion deployed to Iraq. Prior to the purchase of radios, the
Georgians used unsecure cell phones and email to communicate with forward deployed
units. Military leaders are developing plans to use the new training and equipment.

Partner Nations’ Perceptions of the Program

Senior Georgian officials possessed a clear understanding of the distinctions between
Section 1206 and other foreign military assistance programs. Military leaders recognized
that the U.S. intended the equipment and training to build capacity and improve Georgia's
ability to participate in stability operations with the U.S. military.

At the same time, based on delivery delays, the Georgians contend the Section 1206
equipment delivery process is slow and cumbersome, and the acquisition process needs to
be streamlined and more efficient.




                                            75                                   APPENDIX I
                       Interagency Evaluation of the Section 1206 Global Train and Equip Program
                        August 31, 2009                              Report Number IE-2009-007


Indonesia
The Section 1206 program supplied Indonesia with
MDA training and equipment to improve the ability of                        Country            Amount
the Indonesian military to monitor the complex maritime
                                                                           Indonesia         $ 18.4 million
boundaries of this Southeast Asian multi-island nation.
The Pacific Command established the MDA program.

What the Security Concerns Are
The Strait of Malacca is a major area of concern. It is the narrow passage between
Indonesia’s island of Sumatra and mainland Malaysia. At Phillips Channel near
Singapore, the passage narrows to a width of 1.5 nautical miles. About 60,000 vessels
pass through the Strait each year. China and Japan get their oil supplies from tankers that
transit the Strait, although the largest tankers follow an alternate route through the
Indonesian islands. The commerce that flows through the Strait is a potential target for
terrorists.

Indonesia’s primary terrorist-related security concerns are the activities of two major
terrorist groups—Jemaah Islamiya (JI) and Philippines-based Abu Sayyaf Group. These
groups and other terrorist factions can exploit the sea-lanes between Indonesia and
neighboring countries to move people and materiel to achieve their terrorism objectives.

According to the Department of State’s Country
Reports on Terrorism, 2007, the Jemaah Islamiya is
active primarily in Indonesia and is estimated to
have as many as a thousand members. It seeks to
establish an Islamic caliphate across much of
Southeast Asia. Abu Sayyaf Group is an Islamic
terrorist group that seeks to establish an
independent Islamic state in the southern
Philippines and engages in terrorism primarily for
profit. The significance of the Abu Sayyaf Group
for Indonesia lies in its relationship with JI and
other extremist groups. 70

What Capacity Was Needed
                                                                   Indonesia - Communication Radar Tower
Monitoring terrorist activity in the Strait of Malacca        (Photo by IG Assessment Team)
required a surveillance system that supported the
MDA goals. Indonesia had installed two Integrated Maritime Surveillance Systems
(IMSS) stations along the eastern coast of Sumatra. Although the IMSS provided
70
  For a fuller discussion of terrorism in Indonesia, see the U.S. Department of State’s Country Reports on
Terrorism, an annual publication mandated by law. U.S. Department of State, Country Reports on
Terrorism 2007 pp. 35-37, and 285 (2008). See also U.S. Department of State, “Background Note:
Indonesia” (September 2008).




                                                    76                                        APPENDIX I
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

Indonesia with a capability to monitor two strategic points along the Strait, Indonesia
needed additional IMSS stations to provide continuous coastal surveillance.

How the Section 1206 Project Builds Partner Nation Capacity to
Counter Terrorism or Participate in or Support Stability Operations
Indonesia’s Section 1206 project for FY 2006 expanded their MDA capability to monitor,
detect, document, and interdict transnational terrorist operating in the Strait of Malacca.
The system provides Indonesia with an enhanced capability to collect critical information
about transnational terrorism, act upon it, and share the information with the international
community.

What the IG Team Did
The IG team met with the Deputy Chief of Mission at the U.S. Embassy—Jakarta and the
Office of Defense Cooperation staff. The IG team also:

      met with Indonesia’s Chief of Navy Operations and the Secretary of Naval
       Research and Development;
      toured the facilities of the Section 1206 equipment supplier and contractor—
       Techno-Sciences, Inc. (TSI);
      received a project status briefing from TSI’s in country manager; and
      conducted a site visit to the Batam Navy Station, where the IG team interviewed
       the commander and saw a demonstration of Section 1206-funded equipment at the
       Batam Regional Control Center.

What Was Provided Under Section 1206 in FY 2006
The Section 1206 program provided $18.4 million for training and equipment to support
the MDA strategy:

      8 IMSS with X & S band radars, cameras, and an automatic identification ship
       (AIS) tracking system;
      7 X-band ship radars (with installation);
      Upgrade of the navy headquarters’ high frequency radio;
      Development of a CONOPS; and
      Spare hardware for two additional IMSS and a training, logistics, and technical
       assistance package.




                                            77                                   APPENDIX I
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

How the Projects Addressed this Partner Nation’s Capability Gaps
The Section 1206 program allowed its navy to add two more IMSS stations in the area
near Singapore. The Automatic Identification System, the ship tracking system, is
similar to Identification Friend or Foe Systems (IFF) for aircraft, but is adapted to
commercial ships. The International Maritime Organization requires ships over 300 tons
to be equipped with AIS.

What the Obstacles Were
Implementation of Section 1206 projects faced a series of obstacles. At first, internal
political sensitivities and concerns dampened the Indonesian government’s interest in the
program. Elements of the Indonesian government were uncertain about U.S. intentions in
supporting the installation of the monitoring equipment.

After U.S. diplomacy resolved these initial concerns, other obstacles included:

          Acquisition of land for proposed sites;
          Identification of funds for site construction;
          Capacity to operate the project sites—facilities, manpower, utilities, and
           infrastructure;
          Processing of operational information; and
          Compliance with human rights reviews for trainees.

Another obstacle was getting the IMSS equipment through Indonesian customs. As a
remedy for this problem, the Indonesian military invited customs officials to attend a
program review of the Section 1206 program and emphasized the need to expedite the
customs process. This communications outreach initiative succeeded in enhancing
cooperation between customs and the military.

Another problem was interoperability—the new equipment was not compatible with
existing IMSS systems. However, the Indonesian navy developed a program to retrofit
the old system to communicate with the Section 1206 equipment. The navy was not
completely satisfied with the capability of the radar because of its limited range, but
found it useful. To increase their range, they plan to request future Section 1206 and
FMF assistance to extend their land-based surveillance system to include shipboard and
aircraft platforms.

Installation was originally scheduled to begin on October 1, 2007. However, these
obstacles delayed the start of the project until February 2008.




                                             78                                   APPENDIX I
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007

What the Status Was
At the time of the IG team’s visit in May 2008, all the equipment necessary to establish
eight sites had been delivered. The navy had approved the installation of two IMSS
stations and initiated operational activities.

What the Results of the Project’s Implementation Were
Improvements Generated by Section 1206

The base commander at Batam Island stated that the IMSS had given his unit heightened
capability to fulfill his unit’s mission to monitor and secure the Strait of Malacca.

Success in Building Operational Capability

Indonesia has demonstrated that they can install and operate the IMSS system. However,
their capability covers only a fraction of Indonesia’s maritime frontier.

Commitment to Sustaining Capability

The embassy’s country team and PACOM are working to get technical and logistics
support through the FMF program to sustain FY 2006 and FY 2007 projects through the
end of FY 2010. The Indonesian military is also working to get national funds to sustain
the project in the out-years. The Indonesian military submitted a request for funds to
provide critical spare parts in their five year budget. The IG team was told that the
budget is very limited, and approval is problematic.

As an interim measure, the SAO agreed to support the replacement of magnetrons for
three more years. The magnetrons need to be replaced after one year of operation. The
SAO has submitted an FMF request for $12.5 million. A small portion of this request
will be to replace the magnetrons. Additionally, these funds will pay two subject matter
experts to assist with the radar and its installation. The project will use about $2.3
million to develop a fusion-correlation algorithm for the data links and $2.3 million for
maintenance parts and labor, headquarters and communications support, and shipboard
systems maintenance support with parts and labor. A proposed $4.5 million would
provide the same type of support for FY 2009, plus a network improvement and upgrades
project, with an increase to $6.4 million for FY 2010.

Partner Nation’s Use of the Capability

The Section 1206-provided equipment has not yet been used for counterterrorist
operations. The base on Batam Island, however, used it to detect and respond to a ship
that ran aground. The base commander said that the publicity in the media about this
capability should serve as a deterrent to potential terrorists and other threats to
Indonesia’s national security.




                                            79                                  APPENDIX I
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007

Partner Nations’ Perceptions of the Program

Although Indonesia was initially skeptical regarding the intentions of the U.S. in
sponsoring the Section 1206 program, government officials regard the IMSS training and
equipment as a significant contribution to help the armed forces monitor its maritime
boundaries.




                                           80                                   APPENDIX I
                       Interagency Evaluation of the Section 1206 Global Train and Equip Program
                        August 31, 2009                              Report Number IE-2009-007


Lebanon
Section 1206 was used to supply Lebanon with
helicopter and vehicle spare parts and ammunition. The            Country         Amount
LAF used these supplies to improve their mobility and
                                                                  Lebanon       $ 10.5 million
operational functions and to conduct counterterrorist
operations in northern and southern Lebanon—
specifically the battle of Nahr al Barid, operations against Ansar al Islam and Fatah al
Islam terrorists, and operations in support of the U.N. Security Council Resolution 1701,
and other internal conflicts. The IG team identified problems with procurement and
delivery of equipment purchased with Section 1206 funds.

What the Security Concerns Are
Lebanon’s primary security concerns are control of the northern and southern borders and
containment of extremist groups embedded in more than 30 Palestinian refugee camps
throughout Lebanon.

Lebanon’s history since independence in 1943 is marked by alternating periods of
political turmoil and relative prosperity. The Israeli military withdrew from south
Lebanon in 2000, but Hezbollah―a terrorist organization supported by Syria and Iran—
continued to launch operations against Israel from Lebanon’s side of the border. Syria
exerted a controlling influence on Lebanese politics until 2005, when anti-Syrian
elements won control of the government. Syria subsequently withdrew their military
forces from Lebanon. 71

What Capacity Was Needed
Historically, the U.S. was the primary supplier
of training and equipment to the LAF.
However, while Lebanon was under Syrian
military domination, the U.S. did not permit
spare parts sales or other forms of security
assistance. Consequently, when Syria
withdrew their forces from Lebanon, the LAF
needed spare parts and munitions to improve
their capability to defend the nation’s borders.


                                                                   Beirut Air Base - Helicopters
                                                                       Awaiting Spare Parts
                                                                    (Photo by IG Assessment Team)
71
  For a fuller discussion of terrorism in Lebanon, see the U.S. Department of State’s Country Reports on
Terrorism, an annual publication mandated by law. U.S. Department of State, Country Reports on
Terrorism 2007, pp.118-120 (2008). See also U.S. Department of State, “Background Note: Lebanon”
(October 2008).




                                                   81                                        APPENDIX I
                       Interagency Evaluation of the Section 1206 Global Train and Equip Program
                        August 31, 2009                              Report Number IE-2009-007

Following fighting between Hezbollah and Israeli forces, the U.N Security Council
Resolution 1701 in August 2006 demanded full cessation of hostilities and, among other
provisions, called for the dispatch of 15,000 Lebanese troops into southern Lebanon. 72
Section 1206 funding was used to support Resolution 1701 provisions.

How the Section 1206 Project Builds Partner Nation Capacity to
Counter Terrorism or Participate in or Support Stability Operations
The Section 1206 project provided spare parts and ammunition to help the LAF conduct
counterterrorist operations against al Qaeda-inspired Ansar al Islam terrorists. The LAF
stated that this assistance was a significant contribution to their capability and supported
their action plan. 73

What the IG Team Did
The IG team met with the Deputy Chief of Mission at the U.S. Embassy-Beirut, the
Office of Reconstruction and Stability, the Political-Military Officer, and the SAO and
their respective staffs. The IG team also met with:

         the LAF Strike Force Commander,
         the LAF and his deputy at Ministry of Defense headquarters,
         personnel at the logistics brigade and toured logistics facilities,
         the commander and key staff at the ammunitions depot at El Loueize and toured
          the facility,
         the Commander and key staff of the LAF Air Force, and
         the Commander of Beirut Air Force Base and toured the flightline and helicopter
          maintenance facilities.

What Was Provided Under Section 1206 in FY 2006
The Section 1206 request for Lebanon was $10.5 million to fund munitions and vehicle
and helicopter spare parts:
         Vehicle spares for 5-ton trucks;
         M113 Armored Personnel Carrier spare parts;
         CUCV spare parts; and
         UH-1H spare parts.




72
 United Nations Security Council Resolution 1701 (2006), Adopted by the Security Council at its 5511th
meeting on August 11, 2006.
73
     Commander, Ammunition Depot Supply, Loueize Ammunition Depot, Lebanon, July 1008.



                                                  82                                      APPENDIX I
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

How the Projects Addressed this Partner Nation’s Capability Gaps
Section 1206-funded helicopter parts helped the LAF improve their operational readiness
rates for combat support and medical evacuation missions. In 2007, the LAF engaged the
Fatah al Islam terrorist uprising in the Nahr al Barid Palestinian refugee camp in northern
Lebanon. Fighting persisted from May 20 to September 7, 2007, with major casualties
on both sides. The LAF prevailed.

What the Obstacles Were
As of July 2008, about 11 percent of the helicopter parts, as measured by value, had been
delivered. The IG team determined that some parts listed in the Letter of Acceptance
were not ordered. Moreover, all approved funds were not obligated. The SAO expressed
concern to the IG team about the lack of feedback from DSCA on the status of the
Section 1206 approved project. The LAF logistics staff was aware of the delay in
obtaining the parts, but was unaware that the requisition had expired and they would not
receive the parts. The IG team made repeated inquiries of DSCA and USASAC to
determine the status of the spare parts. Neither office could explain what parts had been
placed on contract, what items had been delivered, and whether or not funds had expired.

The Section 1206 program provided Lebanon with EDA five-ton trucks, but it did not
provide the manuals for the maintenance and repair of the trucks. Senior Ministry of
Defense and LAF leaders singled out this issue as a significant concern. Without
manuals, the LAF’s ability to operate and maintain the trucks is hampered. The Center
for Strategic Studies of the CNA Corporation noted the missing manuals in a report
issued in April 2008.

The evaluation team visited the LAF ammo depot at El Loueize and met with the
commander. The IG team noted that most of munitions stored at the depot were U.S.
made. LAF officials said that they had not received training on munitions handling. The
commander of the ammo depot stated that two LAF officers had received ammo
management training in the U.S., but that his soldiers were receiving training in Lebanon
from French military training teams. LAF officials expressed a preference for U.S.
trainers for standardization and consistency.

What the Status Was
At the time of the IG team's visit, the SAO officials reported that they had received only
partial shipments of Section 1206 equipment. They could not state with certainty what
percentages had been delivered, because DSCA did not provide a list of what parts were
ordered.

DSCA reported three of five FY 2006 cases were "delivered," and said that the remaining
two cases were 90 percent and 94 percent delivered. The SAO did not agree with this
report and noted that for the three cases reported as “delivered,” DSCA reduced the case
values almost 50 percent from the approved amounts. DSCA did not provide an
explanation for the difference. See Table 10, page 63.



                                            83                                   APPENDIX I
                          Interagency Evaluation of the Section 1206 Global Train and Equip Program
                           August 31, 2009                              Report Number IE-2009-007

The LAF officials described the impact on the fleet of M-113s, Armored Personnel
Carriers: “The lack of spare parts and track shoes for the M-113 literally stops the
carriers in their tracks.” 74

The IG team noted a similar problem for FY 2007 Case B5-B-AAE (see Table 10)—
spare parts for UH-1H helicopters. The approved value of this case was $5,500,000.
DSCA collected $178,000 (3.8 percent management fee), plus $622,597 for DTS, but
only delivered parts valued at $598,303. Apparently, the balance, or $4,100,543, was not
obligated and the funds were allowed to expire.

What the Results of the Project’s Implementation Were
Improvements Generated by Section 1206

Notwithstanding procurement and delivery problems described above, FY 2006 spare
parts enabled the LAF to conduct operations in southern Lebanon. Delivery of FY 2007
equipment and supplies facilitated LAF’s success in the Nahr al Barid battle. Section
1206-funded helicopter components and parts increased the operational capacity of the
air force fleet by increasing the number of mission-capable helicopters from seven to
ten. 75

Success in Building Operational Capability

The LAF has successfully extended its operations into southern Lebanon and asserted
greater control over previously ungoverned spaces and borders. These achievements
demonstrate the success of the Section 1206 program in building Lebanon’s operational
capabilities.

Commitment to Sustaining Capability

The LAF is developing the institutional capacity to maintain equipment and supplies and
manage their defense programs. However, the LAF has a limited budget and requires
external assistance for the foreseeable future. A large proportion of the LAF budget goes
to pay and benefits. Very little funds remain for investment in war-fighting materiel. 76

Partner Nation’s Use of the Capability

In the deployment to southern Lebanon and the engagement to the north at Nahr al Barid
refugee camp, most Section 1206 ammunition and equipment arrived late in the fight but
enabled the LAF to replenish stocks of ammunition and spare parts. Both were counter-
terrorism operations. The use of the equipment fulfilled the statute’s purposes.



74
     Logistics Brigade Commander and staff, LAF, meeting with OIG Evaluation Team, July 2008.
75
     Wing commander, Lebanese Air Force, Beirut Air Base, July 23, 2008.
76
     Discussion with LAF officials, July 2008.




                                                    84                                    APPENDIX I
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007

Partner Nation’s Perceptions of the Program

Senior LAF officers understand how Section 1206 fits within the structure of U.S.
security assistance to Lebanon. They have been working with the country team to
identify requirements and develop Section 1206 proposals.

At the same time, LAF officers have expressed concern that they need better information
about the status of commitments between the time of project approval and the time of
assistance delivery. The problem appears to be a lack of visibility and communication
between the U.S. military program office and their assigned depot agency, and
subsequent reporting with their counterparts in DSCA.

The LAF defined its needed capabilities and missions and established a three-year plan
for acquiring the necessary equipment. The goal is to increase operational capability in
firepower, command and control, and mobility. The LAF views the Section 1206
program as a means to execute their security and counterterrorist plans.




                                            85                                  APPENDIX I
                        Interagency Evaluation of the Section 1206 Global Train and Equip Program
                         August 31, 2009                              Report Number IE-2009-007


Nigeria
The Section 1206 projects were proposed to improve               Country        Amount
Nigeria’s capability to execute the Regional Maritime
Awareness Capability initiative—a EUCOM initiative                Nigeria     $ 6.5 million
designed around a system of coastal radar stations with
associated training and equipment to help Nigeria monitor its maritime spaces in the
Niger Delta and sea-lanes in the Gulf of Guinea. The RMAC helps Nigeria address its
maritime safety and security challenges. Initially, the program encountered delays
because the Nigerian government was reluctant to approve this U.S.-proposed initiative.

What the Security Concerns Are
Nigeria’s principal threat is domestic and transnational terrorism that include Movement
for the Emancipation of the Niger Delta, Muslim extremists, and criminals who use
Nigeria’s ungoverned spaces for illicit activities. Extremist groups launch sabotage and
pirating operations against oil facilities in the Delta and the Gulf of Guinea. The
prevalence of lawlessness in the ungoverned spaces and borders presents conditions
exploitable by terrorists. 77

What Capacity Was Needed
The Nigerian navy needed a system that could
provide continuous coastal surveillance of
maritime traffic in the Niger Delta and the Gulf of
Guinea.

How the Section 1206 Project Builds
Partner Nation Capacity to Counter
Terrorism or Participate in or Support
Stability Operations
The RMAC program contributes to Nigeria’s                 Nigeria - Support Generator
counterterrorist efforts by providing the navy with       (Photo by IG Assessment Team)
the ability to observe, document, and deter
transnational terrorist activity in the region. The program also provides a means to
collect and share information with the international community.




77
  For a fuller discussion of security concerns and Nigeria’s participation in stability operations, see the
U.S. Department of State’s Country Reports on Terrorism, an annual publication mandated by law. U.S.
Department of State, Country Reports on Terrorism 2007, pp. 21-23 (2008). See also U.S. Department of
State, “Background Note: Nigeria” (July 2008).


                                                     86                                        APPENDIX I
                        Interagency Evaluation of the Section 1206 Global Train and Equip Program
                         August 31, 2009                              Report Number IE-2009-007

What the IG Team Did

The IG team met with the Ambassador at the U.S. Embassy in Abuja, the Defense
Attaché, and the Office of Defense Cooperation (the embassy’s security assistance
organization). The IG team also:

         met with the Director of Operations and Training, Federal Republic of Nigeria
          Navy;
         interviewed the Commander, Western Naval District, Federal Republic of Nigeria
          Navy;
         visited the RMAC Sensor Site at the Western Naval Command, Lagos; and
         toured the RMAC Sensor Site on Victoria Island, Lagos.

What Was Provided Under Section 1206 in FY 2006
The Section 1206 program funded $6.5 million for hardware, equipment installation,
testing, training, and limited maintenance and sustainment. Four RMAC systems were
included, each consisting of:

         an AIS antenna;
         a radar;
         an electro-optical/infrared (EO/IR) imaging sensor camera;
         an UHF/VHF radio with commercial encryption; and
         computers, workstations, Line of Sight (LOS)/SATCOM cell phones, and solar
          panels.

How the Projects Addressed this Partner Nation’s Capability Gaps
The RMAC capability gives Nigeria an operational “picture” to locate, identify, track,
and intercept suspicious maritime traffic. The training and equipment helps Nigeria
address its maritime safety and security challenges.

What the Obstacles Were
In preparing its submission for FY 2006 Section 1206 projects, EUCOM did not
collaborate with U.S. Embassy-Abuja. EUCOM, however, briefed the embassy in June
2006 and gained the country team’s support prior to congressional notification. 78

The Nigerian government was reluctant to accept the U.S. RMAC concept. Their initial
concerns and the inherent bureaucracy of the government caused a delay in reaching
agreement on the project. Nigerian officials complained that the U.S. did not consult
78
     GAO-07-416R Section 1206 Assistance.




                                                87                                   APPENDIX I
                        Interagency Evaluation of the Section 1206 Global Train and Equip Program
                         August 31, 2009                              Report Number IE-2009-007

with them during the design and planning stages of the initiative. Consequently, details
like the number and location of the proposed radar stations were not determined up-front.

Section 1206 funding provided only 38 percent of the resources for the planned RMAC
initiative. Other sources withdrew $3.1M of their agreed contribution for the program;
this resulted in a 40 percent reduction in System Installation Testing and Training, and a
14 percent reduction in System Integration and Demonstration. 79

What the Status Was
A local contractor has been working with the Nigerian navy to prepare radar sites and
other project-related tasks. All parties expressed satisfaction with the arrangement. The
contractor had delivered and installed most of the equipment when the IG team visited in
July 2008. However, the system was not yet operational.

What the Results of the Project’s Implementation Were
Improvements Generated by Section 1206

The radar sites are not yet operational. Bilateral relations are improving because of the
coordination and collaboration to implement and execute RMAC.

Success in Building Operational Capability

Installation and training are on-going.

Commitment to Sustaining Capability

Nigeria has the resources to sustain the projects. Nigerian military officials understand
the value of the RMAC project. Nigeria’s long-term political and financial commitment
is unknown.

Partner Nation’s Use of the Capability

Nigeria’s use of the equipment cannot be determined until it becomes operational.

Partner Nations’ Perceptions of the Program

The Nigerian navy is positive about the potential benefits of the RMAC project. Senior
officers expressed some criticism of the design and coordination process. Embassy
officials told the IG team that the ambassador discussed the project with the Nigerian
president, and the ensuing dialogue is a good indicator of improved bilateral
communications and cooperation to implement the surveillance system.




79
     Memorandum for the Record, ECJ8-Q, dated July 2, 2008.


                                                   88                                APPENDIX I
                      Interagency Evaluation of the Section 1206 Global Train and Equip Program
                       August 31, 2009                              Report Number IE-2009-007


Panama
Section 1206 supplied high speed intercept boats and
support equipment, communication equipment, and                  Country         Amount
training. The project helped Panama improve its
capability to monitor its borders and ungoverned                 Panama        $ 7.2 million
maritime space and to counter terrorism and other
unlawful activities. However, in 2008, the Chairman of the U.S. Senate Committee on
Armed Services sent the Secretary of Defense two letters 80 expressing the committee’s
concern for the use of Section 1206 funds for counter narcotics efforts and according to
USD(P) officials, DoD and DOS will no longer use Section 1206 projects to support
EF-CCA.

What the Security Concerns Are
The primary security challenges for Panama are transnational terrorism, criminal
activities, and the potential threat of terrorist attacks against the Panama Canal. The
canal is one of the most strategically and economically crucial waterways in the world.

Panama does not have a standing military force. Instead, the country has the Panamanian
Public Forces (PPF), which includes the National Air Sea Service (formerly the National
Maritime Service), National Police, National Air Service, and the Institutional Protection
Service.

Panama participates in the annual, SOUTHCOM-
sponsored PANAMAX exercise—an exercise focused
on ensuring the defense of the Panama Canal and its
neutrality. In 2008 this multinational training exercises
involved more than 30 ships, a dozen aircraft, and 7,000
personnel from 20 nations.

Regarding transnational terrorism, evidence indicates
that the Revolutionary Armed Forces of Colombia
(FARC) has increased its operations across the border
and into the Panama’s Darien Province. For example,
in February 2008, Panamanian police arrested six
FARC members near the city of Jaque. 81                                Panama NOR-TECH Boat
                                                                       With Communication Gear
                                                                      (Photo by IG Assessment Team)




80
  Chairman, U.S. Senate Committee on Armed Services letters, dated September 25, 2008 and October 2,
2008. Note: Both letters refer to Operation Enduring Freedom (OEF) and not Enduring Friendship (EF).
81
  For a discussion of the transnational terrorist threat in Panama, see the U.S. Department of State’s
Country Reports on Terrorism, an annual publication mandated by law. U.S. Department of State, Country
Reports on Terrorism 2007, pp. 164-165 (2008). See also “Background Note: Panama,” (September 2008).



                                                 89                                      APPENDIX I
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

What Capacity Was Needed
Panama needed secure communications equipment to communicate with their command
centers and intercept boats to interdict suspicious maritime traffic.

How the Section 1206 Project Builds Partner Nation Capacity to
Counter Terrorism or Participate in or Support Stability Operations
The National Air Sea Service (Servicio Nacional Aeronaval (SENAN)), Panama’s coast
guard service, conducts activities to observe, document, and deter terrorist activity.
Section 1206 provided added capability to coordinate and work with the U.S. Armed
Forces and other countries in the region under SOUTHCOM’s regional EFprogram.

What the IG Team Did
The IG team met with the Deputy Chief of Mission at the U.S. Embassy-Panama City
and the embassy’s Law Enforcement Working Group. The IG team also:

      met with the Director and Sub-Director, SENAN;
      met with the SENAN Operations Officers for the Pacific and Caribbean; and
      conducted site visits to the Panama City and Colon Command Centers and port
       facilities—interviewed personnel and observed an equipment demonstration.

What Was Provided Under Section 1206 in FY 2006
The Section 1206 program provided $7.2 million in FY 2006. Training and equipment
included:

      4 NOR-TECH interceptor boats with trailers,
      4 heavy-duty diesel trucks,
      Harris HF/VHF radios, and
      associated training.

How the Projects Addressed this Partner Nation’s Capability Gaps
The Section 1206 program supported the regional EF initiative and focused on the
transnational terrorist threat and canal security. The program complements Panama’s
security strategy and provides needed capacity to their SENAN.

What the Obstacles Were
The PPF is organized under the Ministry of Interior. Before the FY 2009 NDAA,
Ministry of Interior forces were initially considered not eligible for Section 1206 grants.
However, DoD provided funding in FY 2006 and FY 2007 based on an interpretation that
Panama’s maritime security forces were functionally a military institution. U.S.


                                            90                                   APPENDIX I
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007

congressional committees opposed FY 2008 Section 1206 funding for Panama, which
limited their involvement in the EF program. The FY 2009 NDAA, however, now
authorizes “a program or programs. . .to build the capacity of a foreign country’s
maritime security forces to conduct counterterrorist operations.”

The SENAN requested advanced technical manuals and training so that they could make
complex boat and radio repairs. The basic manuals provided under Section 1206 were
inadequate to maintain the boats and radios at a high level of readiness. The contractor
for the EF project was creating a web site that would address this issue.

The lack of trained communication officers is another problem. SOUTHCOM said they
are coordinating with the country team to request International Military Education and
Training funds to support this training requirement.

Delivery of the interceptor boats was delayed. Officials interviewed attributed the delays
to the Defense Transportation System process and how payloads are marshaled and
scheduled for shipping. Using project funds, SOUTHCOM and the project manager in
Fort Myers, Florida, worked outside the DTS scheduling system. As a work-around to
the normal DTS process, the project contractor arranged transportation on a Military
Sealift Command's “Swift” ship. The pre-taxed DTS charges were not recovered.

What the Status Was
At the time of the team’s visit, Panama received all FY 2006 Section 1206 equipment
except for the diesel trucks; however, the trucks have since been delivered. Boat training
was completed. The radios were installed and SENAN personnel had completed radio
operations and maintenance training. Communications connectivity for both secure and
non-secure channels was operational between remote locations to the main
communications center in Panama City.

What the Results of the Project’s Implementation Were
Improvements Generated by Section 1206

The country team stated that the Section 1206 program was faster than FMS, more
responsive, and supported Panama’s needs. In addition, it gave the embassy leverage to
further U.S. strategy and strengthened bilateral objectives. The country team is working
closely with the U.S. Navy to incorporate Panama into future training and military
exercises. These exercises are not part of the EF program, but they provide additional
options to build Panama’s capabilities.

Success in Building Operational Capability

At the time of the IG team’s visit, SENAN had not completed their concept for
operations; therefore, use of the boats was minimal. Panama requested additional
training to achieve full operational capability.




                                            91                                  APPENDIX I
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007

Commitment to Sustaining Capability

The U.S. is providing FMF funds for additional equipment. Panama plans to award a
contract to assist with equipment maintenance to make up for a lack of personnel trained
in maintenance. In addition, the SENAN developed an in-house training program to
expand its capability and ensure continuity.

Partner Nation’s Use of the Capability

At the time of the IG team’s visit, Panamanian use of the boats was minimal. However,
SOUTHCOM officials stated that EF assets are actively utilized to patrol and conduct
interdictions. The Panamanians effectively are improving their communications network
between SENAN locations.

Partner Nations’ Perceptions of the Program

Both the country team and SENAN personnel believe that the program is very important
and meets an essential need. Panamanian officials recognize the security vulnerabilities
of the Panama Canal and the surrounding waters and believe that Section 1206 provided
the tools to counter transnational terrorist threats.




                                           92                                   APPENDIX I
                          Interagency Evaluation of the Section 1206 Global Train and Equip Program
                           August 31, 2009                              Report Number IE-2009-007


Sao Tome and Principe
Section 1206 supplied Sao Tome and Principe with
                                                                Country           Amount
surveillance equipment and training in support of the
Gulf of Guinea Regional Maritime Awareness                Sao Tome and Principe      $3.4
Capability Joint Capability Technology
Demonstration (JCTD) program. This DoD program was designed to assist Sao Tome
and Principe (and other Gulf of Guinea countries) monitor and interdict illegal maritime
traffic and improve their control in the Economic Exclusion Zone—a 200-mile zone
around the Sao Tome and Principe islands.

What the Security Concerns Are
For Sao Tome and Principe, the security challenges are ungoverned spaces and
uncontrolled borders. Piracy and theft are major concerns in the Gulf of Guinea, and
large scale oil theft in the Niger Delta is also a significant problem. Recent attacks on
nearby Nigerian oil pipelines demonstrate the potential for terrorism in this region. As
explained to the IG team, the Desk Officer, Bureau of African Affairs, U.S. State
Department, stated that Sao Tome and Principe’s priorities include preventing illegal
fishing, defending territorial integrity, and protecting fishermen and other Sao Tome and
Principe nationals. 82

What Capacity Was Needed
 Sao Tome and Principe coast guard needed
assistance to address their maritime safety and
security challenges and to share maritime
information automatically with other countries.

How the Section 1206 Project Builds
Partner Nation Capacity to Counter
Terrorism or Participate in or Support
Stability Operations
                                                                     Sao Tome and Principe
The RMAC system is a coastal surveillance                 Communication Center
system that uses ground-based radars and                (Photo by IG Assessment Team)
sensors and the Automatic Identification
System, which allows ships to exchange data, and, thus, identify and track each other. It
also allows participating nations to share maritime information, enabling those nations to
build regional maritime awareness and to contribute to maritime governance. RMAC
will help the Sao Tome and Principe coast guard observe, document, and deter illegal and
transnational terrorist activity in the region.



82
     Interview with Desk Officer, Bureau of Africa Affairs, U.S. State Department.



                                                      93                                APPENDIX I
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007

What the IG Team Did
The IG team met with the Deputy Chief of Mission at the U.S. Embassy-Libreville,
Gabon, and the Defense Attaché. The IG team also:
      met with Sao Tome and Principe’s Commandant of the Coast Guard on Sao Tome
       Island;
      visited Sao Tome AIS/Radar sites;
           o Port of Sao Tome;
           o Mount Macrambrara; and
      observed an exercise and demonstration of Section 1206-funded equipment at the
       Sao Tome and Principe Coast Guard headquarters.

What Was Provided Under Section 1206 in FY 2006
Section 1206 provided $3.4 million in equipment and training. The program funded all
hardware and most of the systems’ installation, testing, and training, plus some
maintenance and short term sustainment. The project’s package included four RMAC
systems, each consisting of:
      an Automatic Information System antenna;
      a radar;
      an electro-optical/infrared imaging sensor camera;
      an UHF/ VHF radio with commercial encryption; and
      computers, workstations, Line of Sight (LOS)/SATCOM cell phones, and solar
       panels.

How the Projects Addressed this Partner Nation’s Capability Gaps
RMAC gives Sao Tome and Principe a “mapping” capability to identify, track, and
interdict maritime traffic.

What the Partner Nation Contributed
Sao Tome and Principe provided the personnel, boats, and infrastructure to support the
Section 1206 project.

What the Obstacles Were
The RMAC-JCTD project had four sources of funding totaling $17.88M. The Section
1206 funding was 38 percent of the entire $17.88M and was the largest funding source
for the project. Other sources withdrew $3.1M of their agreed contribution for the
program; this resulted in a 40 percent reduction in System Installation Testing and
Training, and a 14 percent reduction in System Integration and Demonstrations efforts of




                                           94                                   APPENDIX I
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007

the RMAC-JCTD project for Sao Tome and Principe. 83 To compensate for the reduced
funding, it was agreed that the primary RMAC control center and the Macrambrara radar
sites would be co-located with existing infrastructure.

Ordinarily, the SAO has the mission, among other requirements, to formulate, plan, and
implement a Section 1206 project. For this case, the embassy did not have a dedicated
SAO on the staff. This personnel issue was identified as one of the highest priorities in
the FY 2010 Mission Strategic Plan for Embassy-Libreville. 84 The 2-person defense
attaché office manages SAO functions for two countries―Gabon and Sao Tome and
Principe. Activities in Libreville are important because it is the seat of the Peace and
Security Council―a regional security organization for peacekeeping operations under the
African Union. Further, bilateral military engagements have expanded to include about
15 U.S. ship visits per year, increased training, and other activities. Additionally, the IG
team was told that AFRICOM plans to increase engagements with Gabon, Sao Tome and
Principe, and the Libreville-based Economic Community of Central African States.
Adding a dedicated SAO would enhance the management of Section 1206 and other
bilateral military activities.

What the Status Was
All command center equipment was installed and connected at the time of the
assessment. Two of the sites were constructed, and the equipment was installed in them.
In a third site, the tower and facility had been built, but the equipment had not been
installed. Furthermore, training was near completion. One RMAC site was not set-up.
Its status is incomplete, and its future is undetermined.

What the Results of the Project’s Implementation Were
Improvements Generated by Section 1206

Section 1206 helped Sao Tome and Principe establish a MDA capability. Improvements
included the ability to employ and correlate AIS data effectively, surface search radar
information, camera images, and multiple sources of communications to locate, identify,
track, and intercept contacts in its littoral waters and Economic Exclusion Zone. For
example, during the demonstration, the Sao Tome and Principe coast guard operators
detected an unknown contact on radar and passed contact information to another unit
stationed off the coast with instructions to identify the unknown vessel. An intercept was
executed, and the target was determined to be lawful and non-hostile.




83
     EUCOM Memorandum for the Record, ECJ8-Q, dated July 2, 2008.
84
     FY 2010 Mission Strategic Plan: U.S. Mission to Gabon, Sao Tome and Principe



                                                    95                                APPENDIX I
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

Success in Building Operational Capability
The Section 1206 program was successful in delivering some of the elements of the
RMAC-JCTD program. Consequently, Sao Tome and Principe was the first country in
the Gulf of Guinea to demonstrate:
            security and stability support for the U.S. National Security and Maritime
             Strategies;
            GWOT support by providing other USG agencies and AFRICOM with
             maritime traffic information not previously available;
            infrastructure improvement for combined operations with U.S. armed
             forces; and
            MDA support to regional safety, security, economic, and environmental
             protection activities.

Commitment to Sustaining Capability

Sao Tome and Principe officials told the IG team that the country should be able to
sustain the new capability. However, they remarked that their government is focused on
economic problems, and security issues “often take a back seat” since Sao Tome and
Principe has no political conflicts with any country. In an effort to market the RMAC
capability, the Commandant of the Sao Tome and Principe coast guard said that he is
engaged in cultivating cooperation and support from other interested ministries for airport
operations, customs, fisheries, immigration, and police.

Partner Nation’s Use of the Capability

As previously described, Sao Tome and Principe is developing their RMAC capability.
The Commandant believes the capability will detect and deter terrorists.

Partner Nations’ Perceptions of the Program

Sao Tome and Principe’s perception of Section 1206 has been positive. As noted by the
Commandant, the Sao Tome and Principe coast guard needs time to assess its new
effectiveness, before considering expansion of roles and missions.




                                            96                                   APPENDIX I
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007


Sri Lanka
Section 1206 funding supplied Sri Lanka with inflatable
                                                                 Country                       Amount
boats, communications systems, and training. The project
enhanced Sri Lanka’s ability to maintain maritime                Sri Lanka                   $ 10.8 million
domain awareness. The Sri Lanka Navy (SLN) has used
the equipment and training in several terrorism-related operations.

What the Security Concerns Are
Sri Lanka’s primary security concern is the 25-year war against the LTTE. Sri Lanka
officials stated that more than 70,000 people have been killed in the fighting. The United
States has labeled the Tigers a terrorist organization. The LTTE has developed terrorism
tactics and techniques that other groups, including Al Qaida, have copied. These
methods include suicide bombers, suicide boat attacks, one-person submersibles, and,
more recently, female suicide bombers. According to SLN officials, they believe that
there is a direct correlation between LTTE operations and the attack on the USS Cole. 85

The LTTE can attack from the land or the sea. The top priority for military support,
however, goes to the SLN in an effort to cut off illegal transport of weapons into Sri
Lanka from the sea. Moreover, there have been many LTTE attacks on seagoing vessels
and the SLN. 86

What Capacity Was Needed
The country team performed a detailed analysis to
formulate the Section 1206 proposals—goals,
end-state, objectives, and measures of
effectiveness—for Sri Lanka. The analysis
incorporated elements from the Mission Strategic
Plan, Theater Strategic Capability Plan, and the
2002 Pacific Command (PACOM) Assessment.                           Sri Lanka Communication Center
This analysis resulted in defining the desired                         (Photo by IG Assessment Team)
counterterrorist framework for the Section 1206
program to:
              maintain maritime situational awareness,
              establish an effective communications system, and
              conduct aerial surveillance.


85
     Briefing, Sri Lankan Navy Director of Naval Operations, May 6, 2008.
86
  For a fuller discussion of terrorism in Indonesia, see the U.S. Department of State’s Country Reports on
Terrorism, an annual publication mandated by law. U.S. Department of State, Country Reports on
Terrorism 2007, pp, 142-143 (2007). See also U.S. Department of State, “Background Note: Sri Lanka”
(September 2008).



                                                     97                                       APPENDIX I
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007

How the Section 1206 Project Builds Partner Nation Capacity to
Counter Terrorism or Participate in or Support Stability Operations
The Section 1206 project supports PACOM’s regional strategy to assist partner nations
build the capacity to disrupt and isolate transnational terrorist organizations. The intent
of the project was also to increase Sri Lanka’s capacity to monitor and control areas in
and around its coastal borders that are vulnerable to terrorists’ activities.

What the IG Team Did
The IG team met with the U.S. Ambassador, the Deputy Chief of Mission, the Security
Assistance Officer (SAO), and other members of the embassy’s staff. The IG team also:

      met with SLN Director General of Operations and Colombo Control Center
       personnel,
      met with the Commander of the SLN,
      met with the Commander of the Sri Lanka Air Force, and
      conducted a site visit to the Trincomolee Naval Base, where the IG team
       interviewed personnel and observed an equipment demonstration.

What Was Provided Under Section 1206 in FY 2006
In the Section 1206 project provided $10.8 million for equipment and training. The
project included:

      3 Maritime Operations Stations (to provide initial communications and tracking
       capability at their headquarters),
      1 data server,
      1 electro-optical camera,
      4 infra-red cameras,
      4 large screen displays,
      5 X-Band radar systems,
      1 transportable sensor node,
      9 AIS transponders, and
      10 Zodiac Rigid Hull Inflatable Boats.

The FY 2006 project also included the installation, set-up, integration, and training for
the equipment.

The SLN stated that the new equipment enhanced tactical decision making by providing
more radar coverage and locations of the LTTE forces. The SLN Commander stated that
they are already using the system for command and control in Colombo. SLN personnel


                                             98                                  APPENDIX I
                         Interagency Evaluation of the Section 1206 Global Train and Equip Program
                          August 31, 2009                              Report Number IE-2009-007

have completed training on the radar system and have set-up separate departments for
operations and maintenance. On two separate occasions, the new equipment facilitated
the interdiction of LTTE boats. 87

What the Obstacles Were
At the time of the IG team’s visit, Sri Lanka was experiencing support problems. The
contractor’s obligation to provide system support had expired. The SLN stated that spare
parts are not readily available. The country team determined that the spare parts required
by the contract were delivered. The redirection of spare parts to additional locations and
some defective equipment resulted in the shortage.

Sri Lanka cannot receive further U.S. security assistance because of sanctions from the
Child Soldier provisions in the Department of State’s current appropriations law. 88 After
a rebel unit changed sides and became part of the Sri Lankan army, authorities realized
that the unit included child soldiers. The army is now reviewing the units absorbed and
making arrangements such as schools for the children. If the USG had lifted sanctions by
June 2008, Sri Lanka could have received FY 2008 funding. This deadline was not met.
Sri Lanka received neither Section 1206 nor FMF funds for FY 2008.

What the Status Was
All Section 1206 training and equipment was delivered and the equipment is operational.

What the Results of the Project’s Implementations Were
Improvements Generated by Section 1206

The new equipment provides the SLN with increased domain awareness and greater
tactical command and control of their forces against terrorist threats.

The SLN Commander stated they are now using the system for command and control in
Colombo. Officers of the SLN remarked that they had never had this kind of capability
before the Section 1206 program. The SLN stated that they are pleased to be part of the
Maritime Security Awareness Initiative and requested continued U.S. support.

Success in Building Operational Capability

The SLN was successful in building operational capability by increasing command and
control over counterterrorist maritime operations. This enhanced capability was
demonstrated successfully in various operations.



87
     Briefing, Office of Defense Cooperation Staff, May 6, 2008.
88
 Consolidated Appropriations Act, 2008, Pub. L. 110-161, sec. 699C (2007). [Foreign Operations
Appropriations Act, 2007.]




                                                     99                                  APPENDIX I
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007

Commitment to Sustaining Capability

Long term sustainment is an issue. Sri Lanka has requested additional fiscal support
through FMF funding. They have requested additional operator training, system
administrator training, increased network bandwidth, spare parts, technical manuals,
local, intermediate, and depot maintenance training.

Partner Nation’s Use of the Capability

Sri Lanka has used the Section 1206-funded capacity to combat the LTTE. The country
team recounted three separate occasions in which the SLN used the Section1206
equipment for interdiction of LTTE boats. As stated by the SLN, the navy could not have
tracked, monitored, and destroyed the LTTE boats without this equipment

Partner Nations’ Perceptions of the Program

The SLN stated the program contributed to their capacity, and the naval officers
appreciated the assistance from the U.S. One issue is the sustainment cost—about
$2 million per year. Another issue is the U.S. sanction policy. The latter issue blocked
additional Section 1206 and FMF funding.




                                           100                                  APPENDIX I
                    Interagency Evaluation of the Section 1206 Global Train and Equip Program
                     August 31, 2009                              Report Number IE-2009-007



Appendix J Distribution
Office of the Secretary of Defense
Under Secretary of Defense (Personnel and Readiness)
Under Secretary of Defense (Comptroller)/Chief Financial Officer*
Principal Deputy Under Secretary of Defense (Policy)*
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
Department of the Army
Inspector General, Department of the Army
Department of the Navy
Naval Inspector General
  Deputy Naval Inspector General for Marine Corps Matters
Department of the Air Force
Inspector General, Department of the Air Force

Joint Staff
Director, Joint Staff*
Inspector General, Joint Staff*

Combatant Command
Commander, U.S. Africa Command
  Inspector General, U.S. Africa Command*
Commander, U.S. Central Command
  Inspector General, U.S. Central Command*
Commander, U.S. European Command
  Inspector General, U.S. European Command*
Commander, U.S. Pacific Command
  Inspector General, U.S. Pacific Command*
Commander, U.S. Southern Command
  Inspector General, U.S. Southern Command*
Commander, U.S. Special Operations Command
  Inspector General, U.S. Special Operations Command*

Non-Defense Federal Organizations
Director of Foreign Assistance, Department of State*
Assistant Secretary of State for African Affairs, Department of State*
Assistant Secretary of State for Political Military Affairs, Department of State*
   Director, Office of Plans, Policy, and Analysis*
Legal Adviser, Department of State*
   Assistant Legal Adviser for Foreign Assistance and Legislation*
Office of the Coordinator for Counterterrorism, Department of State
* Draft Report Recipient


                                            101                                 APPENDIX J
                   Interagency Evaluation of the Section 1206 Global Train and Equip Program
                    August 31, 2009                              Report Number IE-2009-007

United States Government Accountability Office*
Office of Management and Budget

Congressional Committees
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Homeland Security and Governmental Affairs
Senate Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Foreign Affairs
House Committee on Oversight and Government Reform
House Subcommittee on Defense, Committee on Appropriations
* Draft Report Recipient




                                           102                                 APPENDIX J
